<html>
<title> - HEARING ON H.R. 1952 AND H.R. 1500 TO DESIGNATE CERTAIN FEDERAL LANDS AND BUREAU OF LAND MANAGEMENT LANDS, IN THE STATE OF UTAH AS WILDERNESS, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
 HEARING ON H.R. 1952 AND H.R. 1500 TO DESIGNATE CERTAIN FEDERAL LANDS 
     AND BUREAU OF LAND MANAGEMENT LANDS, IN THE STATE OF UTAH AS 
                   WILDERNESS, AND FOR OTHER PURPOSES

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                 TUESDAY, JUNE 24, 1997--WASHINGTON, DC

                               __________

                           Serial No. 105-33

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 43-774 CC                   WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas

                        Allen Freemyer, Counsel
                      Tod Hull, Professional Staff
                    Liz Birnbaum, Democratic Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held June 24, 1997.......................................     1

Statements of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     6
    Cook, Hon. Merrill, a Representative in Congress from the 
      State of Utah..............................................     9
    Faleomavaega, Hon. Eni, a Delegate in Congress from the 
      Territory of American Samoa................................     5
    Gilchrest, Hon. Wayne, a Representative in Congress from the 
      State of Maryland..........................................     6
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    Hinchey, Hon. Maurice, a Representative in Congress from the 
      State of New York..........................................    15
        Prepared statement of....................................    17
    Vento, Hon. Bruce, a Representative in Congress from the 
      State of Minnesota.........................................     3

Statements of witnesses:
    Harja, John A., Vice Chairman, Board of Trustees, Utah School 
      and Institutional Trust Lands Administration...............    26
        Prepared statement.......................................   108
    Johnson, Randy, County Commissioner, Emery County, Utah......    21
        Prepared statement.......................................   101
    Judd, Joe, County Commissioner, Kane County, Utah............    25
        Prepared statement.......................................   105
    Liston, Louise, County Commissioner, Garfield County, Utah...    23
        Prepared statement.......................................    57
    McIntosh, Heidi J., Legal Director, Southern Utah Wilderness 
      Alliance...................................................    44
        Prepared statement.......................................   126
    Meadows, William H., President, The Wilderness Society.......    41
        Prepared statement.......................................   112
    Sease, Debbie, Legislative Director, Sierra Club.............    42
        Prepared statement.......................................   119

Additional material supplied:
    H.R. 1500 briefing paper.....................................    98
    Text of H.R. 1952............................................    59
    Text of H.R. 1500............................................    81


HEARING ON H.R. 1952 AND H.R. 1500, TO DESIGNATE CERTAIN FEDERAL LANDS 
     AND BUREAU OF LAND MANAGEMENT LANDS, IN THE STATE OF UTAH AS 
                   WILDERNESS, AND FOR OTHER PURPOSES

                              ----------                              


                         TUESDAY, JUNE 24, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 1334, Longworth House Office Building, Hon. James V. 
Hansen (Chairman of the Subcommittee) presiding.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Hansen. The Subcommittee on National Parks and Public 
Lands convenes to once again address the issue of Utah BLM 
wilderness. We have proposals from Mr. Cannon and Mr. Hinchey 
before us, and I commend these members for their hard work.
    Although this has been a hotly contested issue over the 
past 20 years in the State of Utah, and recently on a national 
scale, it was this subcommittee that actually brought the issue 
to the forefront last Congress.
    The Utah Delegation, the Governor, the counties, and the 
people of Utah entered a very long and arduous public process 
to attempt to find a way to resolve this issue. Many have 
wondered why I would be willing to engage in this debate once 
again, given we have the same Administration, the same players 
in the House and Senate.
    We must undertake this issue again because it needs to be 
solved for the State of Utah and for the benefit of the lands 
we all want to protect. I am proud of the millions of acres of 
wilderness I have helped designate in Utah and all over this 
Nation. I firmly believe we need to protect the true wilderness 
areas of southern Utah.
    All of the issues in southern Utah that are gaining 
national attention revolve around the wilderness issue. RS 2477 
rights-of-way, the wilderness reinventory by Secretary Babbitt, 
resource activities on public lands, and the designation of the 
new monument all hinge on the designation of wilderness.
    This process began over 20 years ago with the passage of 
the 1976 Federal Land Policy Management Act. Since that time, 
the professionals at the BLM spent over 15 years and over $10 
million to study and inventory the BLM lands of Utah pursuant 
to FLPMA. In 1991, the BLM recommended that 1.9 million acres 
should be designated as wilderness of the 3.2 million acres 
that are in Wilderness Study Areas.
    Many, including Secretary Babbitt, disavow that entire 
process, yet it has been upheld in Federal Court, and it is 
this process under which these lands are currently protected. 
This is the base from which we work, and certainly H.R. 1952 
reflects the recommendations of the BLM. H.R. 1500, on the 
other hand, represents an effort started by Wayne Owens to 
protect 5.3 million acres--as you may recall, that was the 
amount that Wayne had in his bill--that is supported by the 
environmental community.
    I would like to remind the Subcommittee that the counties 
originally recommended approximately 1 million acres, and the 
Utah Delegation doubled their suggestions last Congress. I 
would also like to remind the Committee that the State 
legislature did a 2-year exhaustive study--a very expensive 
study, and they recommended 1.4 million acres.
    At the same time, it has been made clear by the supporters 
of H.R. 1500 that they will hold for 5.7 million acres, which 
they are entitled to do. The formation of public policy 
requires compromise, creative solutions, and doing what is 
right for this country. I would encourage all those engaged in 
this debate to work toward a solution as opposed to working 
toward further polarization.
    During the 104th Congress, the debate stepped outside the 
bounds of the wilderness debate, and the rhetoric began to take 
personal shots at those involved in the issues on both sides. 
Mr. Hinchey and myself are colleagues. I respect his opinions, 
and he has been a gentleman throughout this process. In fact, 
Mr. Hinchey has authored a letter to the Utah press condemning 
those who make personal attacks. I appreciate his efforts, and 
this should always be above personal attacks on anyone.
    I welcome our witnesses today. And I realize this is a 
shorter notice than some would prefer, but I believe all sides 
are adequately represented today. I hope we can hear testimony 
that moves us toward a solution. Simply tearing apart another 
proposal does little as far as educating the members and the 
public. I hope we can focus on the lands we need to protect and 
talk about positive ways to finally designate BLM wilderness in 
Utah.
    I have to say respectfully that I am just a little weary of 
people saying we haven't given this adequate attention. I don't 
know of an issue in my 38 years as an elected official that has 
had more attention than this one. I don't want to put you all 
to sleep, but I could tick off the numbers of Congressmen from 
both the State of Utah and other States who have been to Utah 
to look at these lands.
    I am tired of going to every one of them. I have personally 
been on every piece of this. I have looked at them. I have 
tried to use the standard of what constitutes wilderness and 
what does not. And hopefully we can come up with a compromise.
    Our friend from Minnesota has to do a unanimous consent on 
the floor, and if the gentleman from American Samoa would give 
him the mike at this time, I would appreciate it.
    [Prepared statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    The Subcommittee on National Parks and Public Lands 
convenes to once again address the issue of Utah BLM 
wilderness. We have proposals from Mr. Cannon and Mr. Hinchey 
before us and I commend these Members for their hard work. 
Although this has been a hotly contested issue over the past 20 
years in the State of Utah, and recently on a national scale, 
it was this Subcommittee that actually brought this issue to 
the forefront last Congress. The Utah Delegation, the Governor, 
the Counties and the people of Utah entered a very long and 
arduous public process to attempt to find a way to resolve this 
issue. After over 50 public meetings, thousands of personal and 
written testimonies and three Congressional hearings, we were 
still at an impasse over acreage and other issues. Many might 
wonder why I would be willing to engage in this debate once 
again given we have the same administration and the same 
players in the House and Senate. We must undertake this issue 
again because it needs to be solved for the State of Utah and 
for the benefit of the lands we all want to protect. I am proud 
of the millions of acres of wilderness I have helped designate 
in Utah and all over this nation and I firmly believe we need 
to protect the true wilderness areas of Southern Utah. All of 
the issues in Southern Utah that are gaining national attention 
revolve around the wilderness issue. RS 2477 rights-of-way, the 
wilderness re-inventory by Secretary Babbitt, resource 
activities on public lands and the designation of the new 
Monument all hinge on the designation of wilderness.
    This process began over 20 years ago with the passage of 
the 1976 Federal Land Policy and Management Act. Since that 
time, the professionals at the BLM spent over 15 years and over 
$10 million to study and inventory the BLM lands of Utah 
pursuant to FLPMA. In 1991, the BLM recommended that 1.9 
million acres should be designated as wilderness of the 3.2 
million acres that are in wilderness study status. Many, 
including Secretary Babbitt, disavow that entire process yet it 
has been held up in Federal Court and it is the process under 
which these lands are currently protected. This is the base 
from which we work and certainly H.R. 1952 reflects the 
recommendations of the BLM. H.R. 1500, on the other hand, 
represents an effort started by Wayne Owens to protect 5.7 
million acres that is supported by the environmental community. 
I would like to remind the Subcommittee that the Counties 
originally recommended approximately one million acres and the 
Utah Delegation doubled their suggestions last Congress. At the 
same time, it has been made clear by the supporters of H.R. 
1500 that they will only settle for 5.7 million acres. The 
formation of public policy requires compromise, creative 
solutions and doing what is right for this country. I would 
encourage all those engaged in this debate to work toward a 
solution as opposed to working toward further polarization.
    During the 104th Congress the debate stepped outside the 
bounds of the wilderness debate and the rhetoric began to take 
personal shots at those involved in this issue. Mr. Hinchey and 
myself are colleagues, I respect his opinions and he has been a 
gentleman throughout this process. In fact, Mr. Hinchey 
authored a letter to the Utah press last year that condemned 
personal attacks during this process. I appreciate his efforts 
to keep this debate above a level that leads us to nowhere.
    I welcome our witnesses today. I realize this was shorter 
notice than some would prefer but I believe all sides are 
adequately represented today and I hope we can hear testimony 
that moves us toward a solution. Simply tearing apart another 
proposal does little as far as educating the Members and the 
public. I hope we can focus on the lands we need to protect and 
talk about positive ways to finally designate BLM wilderness in 
Utah.

    [Text of H.R. 1952 may be found at end of hearing.]
    [Text of H.R. 1500 may be found at end of hearing.]
    [H.R. 1500 briefing paper may be found at end of hearing.]
    Mr. Faleomavaega. Mr. Chairman, I would gladly defer to my 
good friend from Minnesota at this time.
    Mr. Vento. Well, I thank the member for----
    Mr. Hansen. We will recognize the gentleman from Minnesota.

  STATEMENT OF HON. BRUCE VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. Well, thank you, Mr. Chairman. I have listened 
carefully to your remarks, and I hear a lot of positive words 
this morn-

ing in terms of the consideration of these two bills. I note 
that there is concern about the Administration not being 
present to testify today and some of the Utah witnesses that 
were not able to accommodate the schedule, although I note that 
you sent the schedule out last week according to the rules and 
so forth. But I think there is a desire to hear from the 
Administration and perhaps some other witnesses on the matter.
    I think it is especially important because the measure that 
we have before us--a new measure, H.R. 1952, is not simply a 
designation bill but a bill that attempts to consolidate land 
in Utah by taking lands that would be within the wilderness--
State lands within the wilderness and consolidating or trading 
them out. I think that that is the purpose of it.
    Although I haven't studied this carefully, I will read the 
testimony of our colleague that has introduced it. And I want 
to welcome both of our colleagues, my colleague on the Banking 
Committee, Mr. Chairman. Merrill has the duty of sitting in 
front of me as I speak once in a while. On that committee 
Merrill and I----
    Mr. Cook. And it is a great pleasure.
    Mr. Vento. His friendship and his tolerance of my 
observations on financial institution matters, the last week 
especially as we tried to finish up some work. But, Mr. 
Chairman, my experience with this, as you have indicated, goes 
back at the behest of a member from Utah; held hearings on land 
consolidation and had the wisdom of the former Governor, Scott 
Matheson, in terms of his efforts to consolidate land in Utah. 
We held that hearing in Utah, and for one reason or another it 
didn't work out.
    But I think that in working together with you we have made 
some good strides in terms of land consolidation which is 
important. I have come to realize that the school section is 
looked upon as being an important component, if not today, in 
the future in terms of supporting the schools in Utah.
    As a former educator and teacher--science teacher actually, 
Mr. Chairman, I am especially impressed with the idea and the 
concerns that people in Utah have with regards to appropriate 
level of support for elementary and secondary education. I know 
that today the amount of revenue raised from these is very 
small compared to what the total dollars are that are invested 
in Utah, but it makes a difference in terms of what happens to 
kids.
    So we obviously want to accord you and others that have 
this mixture of public lands, whether it is in BLM or Forest 
Service or happens to be in wilderness, the opportunity to 
utilize that particular resource.
    Nevertheless, Mr. Chairman, one of the main controversies 
here, as you know, goes back over a decade. We have been 
working on this for almost 10 years, and I share your concern 
about bringing it to a conclusion. And the fact is with the 22 
million acres of land, only about 3.5 million were formally 
studied. I think that most of us would--most thought that there 
should have been a greater amount that was studied. That 
particular controversy has carried through to the consideration 
of bills on Utah and the wilderness designation.
    A former member, of course, introduced a bill that had a 
significantly greater number of acres. Mo Hinchey has picked up 
on that particular view and has presented it. There is, as you 
know, a lot of support and opposition to that bill, and, of 
course, the recent designation--the monument designation by the 
President has engendered greater polarization.
    So I think, you know, all of us have to kind of slow things 
down and pull it back together and go forward from where we 
are. I would do my best if we can come to some agreement with 
regards to wilderness and monument designation--whatever 
modifications or changes to any of these bills.
    I certainly want to work with you and Congressman Hinchey 
and the other members of the Utah Delegation to put my 
abilities and talent to work so that we can resolve this issue 
and do a good job in terms of designation and park designation. 
In order to do that though, we have to obviously sit down and 
work and act in good faith.
    And I think, Mr. Chairman, that your comments today and 
some of the other actions that will take place will, of course, 
lead us in that direction. And hearing from the Administration 
and other witnesses--we have got a little time this year. I 
hope that we indeed can do that.
    And with that, Mr. Chairman, I apologize. I have to leave 
shortly, but I wanted you all to know, the folks from Utah that 
are here today and the members, of my continued interest in 
this matter. And if I have to absent myself, it will only be, 
Merrill, because I have to go over and do a banking bill. I 
take care of everything green--the money and the land--and a 
few red rocks.
    Mr. Hansen. We will get you a few, Bruce. We thank the 
gentleman from Minnesota for his comments. The gentleman from 
American Samoa, Mr. Faleomavaega.

STATEMENT OF HON. ENI FALEOMAVAEGA, A DELEGATE IN CONGRESS FROM 
                THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. And, Mr. 
Chairman, as we saw in the 104th Congress, the consideration of 
the Utah wilderness legislation can be quite controversial, to 
say the least. And, Mr. Chairman, I know of your deep, personal 
interest in this matter, and it is probably more than anyone 
sitting on this panel has had, the experience of knowing just 
about everything and anything there is dealing with wilderness 
in Utah.
    So I truly respect your opinion and your efforts in trying 
to find some sense of resolution to this issue, as I am sure 
also the case of our good friend and colleague from New York, 
Congressman Hinchey, and his version of what should be 
wilderness.
    And I guess with this backdrop, Mr. Chairman, I have just a 
little concern that perhaps if more notice or opportunity could 
be given not only to the Administration but to other members of 
the Committee, we could at least have had a chance to review 
the proposed bill offered by our good friend from Utah, 
Congressman Cannon.
    And I certainly have the utmost respect for my friend from 
Utah, but the short notice just did not give us a chance to 
properly review the substance of the proposal. But I am sure 
that this is the reason why we have a hearing, and I certainly 
want to personally welcome both Congressman Cook and 
Congressman Cannon for their presence and their testimony 
before the subcommittee.
    Mr. Chairman, I look forward to working together with you 
on this proposed version that we have now before the 
subcommittee, and I sincerely hope that there will be a 
resolution to this and hopefully also that there may be another 
opportunity for a hearing concerning these two bills. And with 
that in mind, I look forward to hearing the testimonies.
    Mr. Hansen. Thank you. I appreciate the comments from the 
gentleman from American Samoa, who is really a misplaced Utahan 
as he went to BYU, which I won't hold against him at all. The 
gentleman from Maryland, Mr. Gilchrest.

STATEMENT OF HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you, Mr. Chairman. I too look forward 
to the testimony from the witnesses today and will stay as long 
as I can with our other duties around this great Nation's 
capital. But I think, Mr. Chairman, this is a situation that 
people can sit down across the table and resolve so that the 
children in the State of Utah can get a good education, that 
the area can be enjoyed as far as recreational purposes, and 
wilderness areas are concerned from the people of Utah and from 
the people around this great country.
    And the people of Utah and the people of this country are 
looking to us as representatives to sit down and figure out how 
we can accommodate both of these things. It always boils down 
to me, at any rate, when we are looking at issues that are 
somehow directly or indirectly related to environmental issues, 
it boils down to lung tissue and mortgage payments.
    We all need lung tissue, and we all need to pay our bills. 
And if we could sit down and talk about these things, I think 
we would be able to come to a pretty good and reasonable 
solution that we all could agree on. And I thank you, Mr. 
Chairman, for having this hearing.
    Mr. Hansen. I thank the gentleman from Maryland. We are 
pleased to have our two Congressmen from Utah, other than 
myself, Congressman Merrill Cook from the Second District and 
Congressman Chris Cannon from the Third District. Mr. Cannon is 
the author of this bill, and, therefore, as the rules of our 
Committee, we will hear from him first. Normally, we would hear 
from Mr. Hinchey and then Merrill Cook. And if Mr. Hinchey 
walks in, we will go in that direction. Chris, we will turn the 
time to you, sir.

 STATEMENT OF HON. CHRIS CANNON, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman, and fellow Committee 
members. I am delighted to testify before you today on the 
issue of Utah wilderness. I am particularly pleased to be 
sitting at the witness table with my friend and colleague from 
the Second District, Merrill Cook, and look forward to what he 
has to say on this issue as well.
    I represent Utah's Third Congressional District which is a 
vast and sprawling area about the size of Ohio. My district 
stretches from snowcapped mountains of the Wasatch front to the 
red rock vistas of southern Utah. I have four national parks, 
several national monuments, including a particularly large one 
that has been in the press a bit over the past few months. We 
also have several national forests.
    I also represent the vast majority of the areas under 
debate in this Utah wilderness bill. As this subcommittee 
abundantly knows, wilderness has been, and is today, a terribly 
divisive issue in Utah.
    In fact, my first proposal on coming to Congress on this 
issue was for a cooling off period whereby no legislation would 
be introduced during this session. My thought was that the best 
thing would be to do nothing to allow for discussion rather 
than confrontation.
    So why did I introduce H.R. 1952 last week? The answer can 
be found in the title of my bill. It is the Utah Wilderness and 
School Trust Lands Protection Act of 1997. I have explicitly 
linked the issue of Utah wilderness and protection of Utah 
school trust lands because the issues are inextricably 
intertwined.
    Acreage is not the focus of my bill. Protection of Utah 
school children is. H.R. 1952 contains about 2.1 million acres 
of wilderness. Frankly, I am not terribly wedded to the acreage 
issue. It is not, in my mind, the most important at all. I 
believe that the law and the science will guide us to a 
reasonable conclusion about how much acreage and which acreage 
should be included.
    In my mind, wilderness designation should be based on those 
two issues; that is, the law and the science. It may well be 
that we need to have more acres than 2.1 million. I am 
completely open to that possibility. Or it may be that we 
should have considerably less. There are certainly some 
arguments for that as well. But that is an issue that I hope we 
debate rationally and calmly in the future.
    School trust lands are worthy of immediate scrutiny. Utah 
became a State in 1896, and the State, like most western 
States, was divided into townships. A township is six miles by 
six miles, and so every township would be divided in about 36 
sections of a mile square.
    In order to support Utah's schools, the Congress granted to 
Utah, as it did with most western States, an endowment of 
school trust lands in each township. And in Utah, that was four 
sections for every township.
    School trust lands were meant to be developed. The only way 
the revenues can be generated is by some form of development, 
whether by land sales, leasing, mining, timber, and development 
of some other similar activity. And I am pleased to note that 
that is acknowledged in at least the testimony that was 
supplied in advance by some of our witnesses who oppose or who 
wish to have a great deal more land set aside in Utah.
    Other western States have been able to use their trust 
lands to generate substantial revenues for their schools. So, 
for instance, in New Mexico, they have a trust with $3.9 
billion generating an income to New Mexico schools of about 
$275 million.
    Our neighboring State of Wyoming uses its school trust 
lands to generate in excess of $110 million a year for Wyoming 
schools. Yet, Utah has struggled to generate revenue for the 
school trust lands, mostly because of the effect of Federal 
land management decisions on those school trust areas.
    The fundamental problem is the Federal Government is very 
good at making land designations, a monument, a national 
forest, or a national park, but very poor at remembering 
afterwards to take care of school trust lands. The fact is that 
Federal land designations have the effect of harming the value 
of school trust lands that are so encompassed.
    Restrictive land designations such as wilderness have the 
effect of trapping school trust lands and sections by 
restricting access, precluding economic development, and often 
simply discouraging potential entrepreneurs from seriously 
considering any form of economic activity.
    My guiding principle on the issue of wilderness is simple. 
Wilderness designation should not come at the expense of Utah 
schools. Within the 2.1 million acres of my proposed wilderness 
are about 140,000 acres of school trust lands. My bill ensures 
that Utah's 473,000 students and 22,000 teachers are not hit in 
the pocketbook by preserving the full value of all school trust 
lands impacted by the wilderness designation.
    H.R. 1952 contains three provisions. First, any new 
wilderness areas officially transferred to the National 
Wilderness Preservation System--that is before any new 
wilderness areas are transferred the included school trust 
lands must first, repeat first be exchanged for other lands. 
This is a precondition, not an afterthought.
    Second, my bill allows Utah School Trust Lands 
Administration to pick unappropriated lands for trades rather 
than rely on the Department of the Interior to come forth with 
a possible land trade package. The Secretary of Interior can 
object to lands selected but only on the narrow question of 
valuation. Thus, disputes over trades will be narrower and more 
focused than under the current practice.
    Third, my bill creates authorization authority to reimburse 
Utah School Trust Lands Administration for their costs in 
conducting an exchange. This is an important point. Exchanges 
with the Federal Government are extremely expensive. Appraisals 
cost money. Planning costs money. The ever-present litigation 
over valuation-related issues adds a hefty tag. All these are 
probably necessary expenses, but these are expenses that when 
triggered by Federal action should be borne by the Federal 
Government, not Utah school children.
    Let me briefly contrast the school trust land language in 
my bill with the language of H.R. 1500 by my colleague from New 
York. H.R. 1500, by designating 5.7 million acres as 
wilderness, would impact the value of about 630,000 acres of 
Utah school trust lands. This 630,000 acres is a considerable 
amount of land. It is an area roughly a third the size of 
Connecticut.
    Certainly, this is an issue that should be of some concern 
to the subcommittee, but it is not an issue of concern in H.R. 
1500. In fact, there is not one word about protecting Utah 
school trust lands in H.R. 1500. This is simply unacceptable.
    Federal land protection must not come at the expense of 
education in my State. That is why I would encourage the 
subcommittee to analyze both of our bills side by side. I 
strongly believe that H.R. 1952 does a better job in balancing 
the competing interests of our environment, local economic 
development, and protection of Utah schools. Thank you, Mr. 
Chairman.
    Mr. Hansen. Thank you, Mr. Cannon. I appreciate your 
testimony. We will turn to our friend from the Second District, 
the Honorable Merrill Cook. Merrill?

 STATEMENT OF HON. MERRILL COOK, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Cook. Well, thank you, Mr. Chairman, and other members 
of the Committee. I very much appreciate this opportunity to 
testify for a few minutes about a very, very important issue 
and an issue that has been debated and argued over and fought 
over for many, many years--several decades.
    And I think the Salt Lake District that I represent, the 
Second District--the debate has been no more intense anywhere 
else in this country because people feel very strongly about 
wilderness, about the process by which wilderness is created, 
about our new monument, and about education and the school 
trust lands. And I really wanted to come here to endorse the 
concepts behind H.R. 1952.
    I don't necessarily agree with the acreage that is listed 
in 1952, and I don't agree with the acreages that are listed in 
H.R. 1500. But I am very appreciative that both of these bills 
have come forward, and I have to say I have been very impressed 
with Mr. Hinchey's real concern about the lands in Utah, his 
interest, and his I think decent and honorable spirit of 
approaching it.
    And I was also impressed that in the heat of a campaign 
last year he wrote a letter to the largest newspaper in my 
district and expressed his goodwill toward the Chairman of this 
Committee and toward the whole process. So although I may 
disagree with both Mr. Hinchey and Mr. Cannon in terms of the 
total number of acres that are contained in their bill, I 
really do applaud the process.
    But I have to say that H.R. 1952 that has been introduced 
by my colleague from the Third District in Utah at least talks 
about some very important issues, links, and things that Mr. 
Hinchey's bill simply does not do. We have to be able to solve 
or resolve to whatever extent possible this whole question of 
school trust lands as we designate wilderness.
    Now, just yesterday I made the point that over 176,000 
acres of school trust lands are contained within the national 
monument that was created last year, and I think it is closer 
to 500,000 to 600,000 acres of school trust lands that are 
contained within the designations that would be if H.R. 1500 
were passed into law, and obviously a lot less but I think 
something over 250,000 or around 200,000 acres if H.R. 1952 is 
enacted.
    So the point is whether it be 200,000 or 500,000 acres of 
school trust lands, this question, as my colleague, Chris 
Cannon has indicated, really has to be taken into account and 
resolved in some manner. And I think the exchange approach 
where trust officials in the State of Utah have some say, that 
it is not just totally decided by the BLM, the Interior 
Department, that at least--and it may have to be worked out by 
both--I acknowledge that--but some kind of an exchange process 
so that we can consolidate the lands. It is very important.
    I notice that Mr. Vento indicated that this was going to be 
a whole new--opening up a whole new area. But I think this goes 
to the heart of what a proper and reasonable wilderness 
designation may turn out to be. If we could solve the questions 
or have answers in this bill to school trust lands, to other 
private property rights, to the status of roads that have been 
there for decades in many cases, to the other questions that 
are always coming up, then it will be a wonderful thing for the 
people of Utah to bring closure.
    And I submit that the total number of acres is totally 
dependent upon how those questions are answered. In other 
words, if there could be absolutely no exchange of school State 
trust lands, then I really couldn't in good conscience vote for 
any additional wilderness designation on the Utah BLM lands. I 
just could not vote for a bill that would absolutely ignore the 
school trust lands issue, even if it were a proposal of half a 
million acres less than what have already been supported by 
members of the Utah Delegation.
    So that is how strongly I feel, but on the other hand, I 
feel that the acreages that were determined years ago during 
the Wilderness Study Area phases of this might well be a 
reasonable number if we can get the exchanges and the 
protection of the property rights and the road questions and 
all the other things resolved.
    Because the bottom line, and I will finish my statement 
with this point, the people of the Salt Lake Valley that I 
represent, they want wilderness designations but they also want 
jobs. They want lung tissue, and they want to be able to make 
their mortgage payments, as Mr. Gilchrest has stated in his 
opening statement. They want the balance. That is in the nature 
of the people of the State of Utah. It is in the nature of the 
people of my district to want a balance.
    And I just happen to believe very strongly that no 
resolution of this issue will ever take place without it taking 
place in a bipartisan manner. I will just say now I don't 
think, unless Mr. Hansen and Mr. Cannon and Mr. Vento and 
others that I think have been very moderate and reasonable in 
this whole debate--unless they can agree, and, yes, I will 
include Mr. Miller--unless all of you can agree, I don't think 
this will ever happen.
    And I do think there is an opportunity for compromise, and 
I think that is what we ought to look for. We ought to make the 
linkages that the Chris Cannon bill talks very clearly about, 
and we ought to get on--we ought to solve it in the 105th 
Congress because I don't think it is useful for the people of 
the State of Utah, indeed for this country, to keep punting 
this question into the 106th Congress, 107th Congress as it has 
been punted into the 105th Congress by previous Congresses. 
Again, I want to thank you very much for the opportunity to 
make this statement.
    Mr. Hansen. Thank you, Mr. Cook. I appreciate your 
comments. Questions for our colleagues? Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. Chris, can you 
explain a little bit how New Mexico ended up with a $3.9 
billion trust earning $275 million for their school children--
apparently, I mean, because of this part of the whole deal with 
the Federal lands involvement here? But I am just curious how 
New Mexico ended up with this. Because of the rich mineral 
resources they have?
    Mr. Cannon. My understanding is minerals, oil, and gas are 
the basis for those funds. Those were, as I believe, areas 
which were more easily developed in earlier stages than Utah's. 
Utah's tend to be coal. There is difficulty of transportation 
with coal.
    The oil and gas on our trust lands are deeper, and we have 
methane beds, other things that are of value, other minerals 
which are now, after we have developed much of our world, more 
economically viable. And, therefore, I think we are at a point 
where those trust lands could produce serious amounts of 
revenue for the State school trust fund.
    Mr. Faleomavaega. You also indicated earlier that there is 
approximately 630,000 acres of school trust lands. Has there 
been any appraisal done of this 630,000 acres? That is a lot.
    Mr. Cannon. That is a lot. The 630,000 is the amount of 
acreage of school trust lands in the 5.7 million acre proposal. 
Much of that has not been appraised. Much of it has been used 
for grazing and for other purposes but producing minimal 
revenues generally.
    Mr. Faleomavaega. Do you think that maybe we ought to look 
into that a little more? I mean, have these trust lands--the 
school trust lands--have they been actually been located or----
    Mr. Cannon. Yes.
    Mr. Faleomavaega. [continuing] or have they been 
recognized?
    Mr. Cannon. We should make it available to you--a little 
map of Utah that has distinguishing----
    Mr. Faleomavaega. Now, was this done by the BLM or the 
Department of the Interior, or what Federal agency was involved 
in that?
    Mr. Cannon. They were designated at statehood and were 
designated by a description, and subsequently most of them have 
actually been surveyed so we know where they are. But when you 
lay out a grid of a survey of Utah, you can see all of them. 
You can tell where they are. Some of them have been 
consolidated. It has been a long time, but some of them have 
been consolidated out of the national forests, for instance, 
into larger blocks of land.
    Mr. Faleomavaega. Have there been any major changes made of 
these school trust lands since statehood--I mean, transfers, 
purchases, anything to affect the value of these 630,000 acres 
when they were first recognized?
    Mr. Cannon. They have actually been managed by the State 
agency, the School and Institutional Trust Land Administration. 
The major changes that has happened with those lands has 
happened--this probably goes back to the time that the national 
forests were designated, when blocks of those trust lands were 
exchanged out.
    So we know the lands. They are identified. They are 
managed. They are leased out for various activities, mostly 
grazing. But there are clearly some mineral development. For 
instance, Conoco is doing its current drilling within the 
monument on a school trust land section.
    Mr. Faleomavaega. Now, I assume that the State of Utah does 
have a trust fund per se for school systems similar to New 
Mexico. What is the current value now of your school trust 
fund, if there is any?
    Mr. Cannon. The current value of that trust is about $100 
million, and I have for you a map that has the State mostly in 
yellow with some other distinguishing colors. And the solid 
colored kind of dots indicate the State trust lands.
    Mr. Faleomavaega. If you know, the Department of the 
Interior cannot even account for some $2 billion that are 
supposedly held in trust for the American Indians. How do you 
suppose they are going to be able to account for what you are 
suggesting here?
    Mr. Cannon. Oh, the $100 million is held by the State, of 
course, and we have great confidence in our administrators of 
that fund. Is your question how are they going to account for 
the acres of land we are talking about in a trade?
    Mr. Faleomavaega. Yes.
    Mr. Cannon. I will tell you that they may misplace funds 
for Indian Trusts, but we have been through hell just trying to 
get a single section traded out of an expansion area we 
proposed for Arches National Park. It has taken us 6 months of 
the most incredible quibbling you can imagine. When you are 
quibbling about trades, you are talking about particulars, and 
in particulars they are persistent.
    Mr. Faleomavaega. I would think that this is such a major 
issue in and of itself, just the total examination of Utah's--
the school trust lands, just to examine it closely and how BLM 
and other Federal agencies--and I am sure my good friend, the 
Chairman, is very much aware of this issue, but I think it 
needs to be brought out certainly for the members of the 
subcommittee to understand it a little better because I think 
your points are well taken--the fact that other states do 
benefit quite well from it, except the State of Utah.
    And I am curious as to why the BLM or whatever agency 
responsible has not been responsive to the needs, not only of 
the school children in Utah, but to see that there is some 
balance in terms of how it deals with the issues affecting the 
State of New Mexico. I mean, they are benefiting from it quite 
generously, and I am just curious why Utah does not get a 
similar type of package, if you might explain it in those 
terms.
    Mr. Cannon. Thank you. I think that is truly worth an 
investigation. If I might just add one example that will give 
some poignancy to the issue, Arches National Park was made a 
monument in the 1950's. It incorporates certain trust lands. We 
have been trying to trade those lands out since the 1950's. In 
1993 in the 103d Congress, we actually passed a law requiring 
the trade of those lands and since they have made no progress. 
So it is a difficult issue and one that is well worth 
considering.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. I appreciate the gentleman's 
comments--point out that New Mexico was a little smarter than 
we were in the 50's and 60's. They made the trades before all 
these laws came along putting us in a position where we are not 
able to do it.
    And they really make some money on their trust lands, where 
we get almost minuscule. But we do have an expert that is going 
to be part of our panel. Mr. John Harja is the expert on school 
trust lands and can refer to it. The gentleman from Maryland, 
Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I would just ask 
one maybe oversimplistic question. In the process of developing 
this legislation, is it possible--I mean, you have identified 
the specific areas that you wanted designated wilderness, I 
would guess, in your bill.
    Mr. Hinchey, I suppose, has designated his acreage and both 
are based on what I would assume is reasonable science, what 
fits the criteria and so on. Can we then sit down and look at 
the trust land and up here decide which will be traded out and 
create a timeframe for that? Is that possible?
    Mr. Cannon. I think that is possible, but I don't think it 
would even be appropriate for this Committee to do it 
unilaterally because even those of us like the Chairman who 
spent a large portion of his life traveling this area, flying 
over it and landing over it, knows the particulars of the 
ground well enough to do that unilaterally. I think we need to 
draw the BLM into the process.
    Mr. Gilchrest. Well, I guess if we drew them into this 
process with this legislation, we wouldn't have enough time to 
pass the legislation if that was a part of it.
    Mr. Cannon. That is where it comes down to the real rub of 
the problem. But if we give them clarity on what to do, which 
is what I have tried to do in my legislation--and I am not 
wedded to this particular process--we just think that the BLM 
has to be given an incentive to act instead of its inherent 
incentive to defer.
    And so, yes, these are issues that they know well, and, in 
fact, the other participants--wilderness alliances have said 
these are important issues. They have done a great deal of 
inventorying of the land in Utah. If the various parties that 
were involved or knowledgeable decided to come forward and 
participate in the process that would protect Utah's schools, 
we could probably resolve this issue fairly quickly.
    Mr. Gilchrest. What are the incentives in this bill that 
you have provided for that effort?
    Mr. Cannon. In the first place, the wilderness designation 
would not take effect until after the trades were made. Second, 
it has cost a lot of money to a relatively small fund to go 
through the appraisal and even litigation process over these 
issues. We think that that bill ought to be borne by the 
Federal Government.
    And then the third issue, which is probably the most 
controversial and the one we are not tied to particularly, 
which is essentially that the Utah trust lands would make a 
selection, and then BLM would have to respond but narrowly as 
to the valuation. ``OK. You are trading. You are proposing 20 
sections here for 20 sections there, but these 20 sections are 
richer in minerals and, therefore, more valuable.'' In that 
circumstance, what I hope we create is a dynamic whereby we 
actually move forward and get some reasonable trades fairly 
quickly.
    Mr. Gilchrest. Given what needs to be done in your 
experience in this issue--Mr. Cook can respond to this as 
well--do you have some idea if this process is--you provide the 
incentive. I would also imagine maybe the Utah Delegation can 
provide the arena under which this can be debated and discussed 
with BLM, with other groups that have an interest in this area. 
What would be your guess as to a reasonable timeframe to 
accomplish this task?
    Mr. Cannon. I believe that that could be accomplished in 
rather a short timeframe if the various parties would come to 
the table. And, frankly, we are anxious to work with the 
various groups. We have talked to them about this. All of them 
have at least given lip service to the importance of trust 
lands.
    If the various groups out there that are concerned about 
wilderness would come forward with their understanding--and, 
remember, nobody has the resources the BLM has, but we have a 
sense among us--we could probably sit down with BLM officials 
fairly quickly and come up with some trades that would make 
everyone happy I think, unless the objective is to not have 
trades.
    Because if you are taking a 5.7 million acre wilderness 
area and you add to that the 630,000 acres, you are at 6.3 
million acres of virtual wilderness even though you have locked 
up those rights. And if the goal is 6.3 million acres, we will 
never have a resolution. But if the goal is to protect Utah 
school children, it could be done fairly quickly.
    Mr. Cook. Mr. Gilchrest, if I could just comment, I don't 
believe it would be possible to effectuate trades of the school 
trust lands or the exchanges prior to passing a wilderness 
bill. But I think it is very possible to set a process or a 
mechanism into place in the wilderness bill to begin that 
process on some kind of a reasonable basis that includes the 
Utah State Trust Lands Administration.
    I think the concern in the State of Utah is that, number 1, 
we get exchanges on this because for one thing they were 
promised in terms of--at least in the context of the creation 
of the national monument last year.
    But, second, that it not be a unilateral decision of the 
Bureau of Land Management or the Interior Department, that Utah 
trust lands administrators that have been effective in being 
able to bring in revenue, although it is very limited in the 
State of Utah, from a real patchwork quilt situation and a 
trust law situation that is working less effectively in Utah 
than almost any other State of the Union, if there could be 
some assurance in the bill that the Utah State Trust Lands 
Administration can be included along with the Department of 
Interior in an exchange process.
    Then I don't think it is at all necessary and I don't think 
it would be wise to expect that all those rather complicated 
valuations and exchanges take place before there is a 
settlement or a resolution on the wilderness question.
    Mr. Gilchrest. Thank you very much. Maybe some of that can 
be put into the report language--that direction. Thank you, Mr. 
Chairman. Thank you, gentlemen.
    Mr. Hansen. Thank you, Mr. Gilchrest. The gentleman from 
Tennessee, Mr. Duncan.
    Mr. Duncan. Mr. Chairman, I don't have any questions, but I 
would say this. I have the privilege of representing about half 
of the Great Smokey Mountains National Park, and this is the 
most heavily visited national park in the country with about 
four times the number of visitors of any other park.
    And most people who come there are awed by the size and the 
grandeur of the Smokies. Yet, it is less than a third the size 
of this 1.8 million acres. It is less than 600,000 acres. And 
somehow I am amazed that in this debate that we have gotten to 
the point where we think 1.8 million acres is not much land. It 
is a staggering amount of land. And to think of 5.7 million 
acres--I mean, that is almost incomprehensible. It is 
unbelievable.
    And I am just not sure that a lot of people realize how 
much or how huge 1.8 million acres is. It is really amazing 
what we are talking about when you think that that is three 
times the size of the most heavily visited national park in 
this country. And I just thought I would make that observation 
for the record. I don't have any questions.
    Mr. Hansen. I appreciate the gentleman's comments. The 
gentlelady from Idaho, Mrs. Chenoweth.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I have no comments 
or questions.
    Mr. Hansen. We thank our colleagues for their comments and 
invite them to join us on the dais. I see we have been joined 
by our friend from New York, Mr. Hinchey, who is the sponsor of 
one of the bills under consideration. So I think it would be 
proper, Mr. Hinchey, if we turned the time to you for your 
opening statement or whatever comments you would like to make.

STATEMENT OF HON. MAURICE HINCHEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Hinchey. Well, thank you very much, Mr. Chairman. I 
very much appreciate that consideration, and please let me 
extend to you and to others my apologies for not being here 
earlier. You have indicated, Mr. Chairman, on several occasions 
that it has been your intention for some time to hold hearings 
on the legislation affecting Utah wilderness.
    As the sponsor of one of the two bills before us today, I 
certainly understand and very much appreciate that. You and I 
have worked together on this legislation now from different 
perspectives, of course, but in a very cooperative and friendly 
way, and I am very obliged to you for your attitude and the way 
that you have conducted your attention to this particular 
initiative.
    So, nevertheless, there continues to be large differences 
between the two particular bills that are before the 
subcommittee. And I know that we are both well aware of the 
barriers to settling this matter anytime in the near future.
    Since we debated the issue at length in the last Congress, 
my remarks about my own bill will be very brief. I have always 
been a strong supporter of protecting wilderness and was, in 
fact, the leading advocate for protecting State wilderness 
lands in New York in my former role as a member of the New York 
State Legislature.
    I believe that one of the things that all of us who are 
here today agree on is that we are not making any new 
wilderness areas, and that the amount of wilderness remaining 
in the United States has declined sharply in the last century 
and will continue to decline if we do not protect what we have. 
To paraphrase former President George Bush, he said, ``My goal 
is no net loss of wilderness.''
    The lands that would be designated as wilderness in my bill 
have been surveyed thoroughly by the people of Utah who share 
the goal that is expressed in that legislation. Most of last 
year's debate focused on whether the lands included in my bill 
were truly wild or not.
    I have always said that I am willing to alter the bill, if 
it is actively considered, on the basis of new information that 
shows convincingly that some of the lands in my bill do not 
qualify as wilderness. Or if lands that are not in the bill do 
qualify, we are perfectly willing to modify the bill based upon 
that new, solid information.
    Probably the best way to resolve this issue that is 
available to us would be to allow the Department of the 
Interior to proceed with the reinventory that you, Mr. 
Chairman, first suggested I believe it was last year.
    I was pleased to see that Mr. Cannon's bill made several 
changes from the bill we considered in this subcommittee last 
year. I was especially encouraged by the deletion of language 
that would have allowed various kinds of development in 
designated wilderness areas. Perhaps that can be the first step 
toward eventual agreement on the Utah wilderness question. Even 
if we have a very long way still to go, that first step would 
be very good news indeed.
    I believe it is particularly important today for me to 
address the issue of school trust lands, since my position on 
this has apparently been misunderstood several times this year. 
I have seen some individuals quoted as saying that my bill does 
not provide for any exchange of the school trust lands that 
would be enclosed under the legislation that I have introduced. 
That, of course, is simply not true.
    My bill does provide for such an exchange under the terms 
of the Federal Land Policy Management Act, as is appropriate. 
What it does not do is prejudice any such exchange in advance. 
It says that any such exchange should take place on the same 
terms and under the same rules as the many exchanges that have 
taken place in other States since the Federal Land Policy 
Management Act was enacted.
    I can well understand the interest of my colleagues in 
expediting land exchanges. However, I have been disturbed by 
the suggestions that some have made that my bill somehow stands 
in the way of land exchanges. There is simply no truth to that 
at all.
    One of the first bills our subcommittee considered when I 
first came to Congress several years ago was a bill authorizing 
land exchanges in Utah, and, of course, I supported that bill. 
I understand that the Department of the Interior and the State 
of Utah have reached agreement on about half of those 
exchanges.
    But if there are people who are concerned about delays and 
already authorized exchanges or the possibility of delays in 
future exchanges, I think that what we ought to do is to 
expedite the inventory and proceed with the exchange of 
information so that those exchanges can take place more 
rapidly.
    Just 2 months ago, Secretary Babbitt, while testifying on 
the establishment of the Grand Staircase-Escalante National 
Monument, commented that his State exchanged 2 million acres 
with the Federal Government during his tenure as Governor.
    It is my understanding that all of those exchanges took 
place under the rules established under the Federal Land Policy 
Management Act and did not require legislation establishing new 
rules or a new process. The same thing has happened in a number 
of other States.
    It is my understanding that most of the trust lands that 
would be enclosed and exchanged under Mr. Cannon's bill and 
under my bill are not currently producing revenue for the Utah 
schools, and that large portions of them would be unlikely to 
produce revenue anytime in the near future.
    According to testimony we have heard in the past, all the 
trust lands--that is, every single trust land throughout the 
State of Utah, not just those affected by either of these two 
bills--produce less than 1 percent of Utah's total school 
revenues. So I think it is unfair to suggest that any 
wilderness legislation is depriving Utah's school children of 
the education they deserve.
    As I said, however, I share the concerns of all those 
people who want to see land exchanges expedited, but those 
exchanges won't take place until the larger question of 
wilderness designation is settled. That, in turn, won't happen 
until we move closer to an agreement of what lands qualify for 
wilderness designation. So I would strongly urge anyone who 
wants to see the lands in question exchanged, let the 
reinventory go forward, as you have suggested, Mr. Chairman, 
and as we all support.
    And, again, I want to express to you my deep respect and 
even admiration, Mr. Chairman, about the way that you have 
conducted these proceedings up to this point. And I look 
forward to the opportunity to continue to work with you to try 
to bring about some equitable, just, and fair resolution to 
this problem.
    [Prepared statement of Mr. Hinchey follows:]

Statement of Hon. Maurice D. Hinchey, a Representative in Congress from 
                         the State of New York

    Mr. Chairman, you have indicated on several occasions that 
it is your intention to hold hearings on Utah Wilderness 
legislation in this Congress, and go no further than that. As 
the sponsor of one of the two bills before us today, I 
certainly understand and appreciate that. There continue to be 
large differences between the two bills, and I know we are both 
well aware of the barriers to settling this matter in the near 
future.
    Since we debated the issue at length in the last Congress, 
my remarks about my own bill will be brief. I have always been 
a strong supporter of protecting wilderness, and was the 
leading advocate for protecting state lands as permanent 
wilderness during my years in the New York State Assembly. I 
believe that one of the things that all of us who are here 
today agree on is that we are not making new wilderness, and 
that the amount of wilderness remaining in the United States 
has declined sharply in the last century, and will continue to 
decline if we do not protect what we have. To paraphrase former 
President Bush, my goal is ``no net loss of wilderness.''
    The lands that would be designated as wilderness in my bill 
have been surveyed thoroughly by citizens of Utah who share 
that goal. Much of last year's debate focused on whether the 
lands included in my bill were truly wild or not. I have always 
said I'm wiling to alter the bill--if it is actively 
considered--on the basis of new information that shows 
convincingly that some of the lands in my bill do not qualify 
as wilderness, or if lands that are not in my bill do qualify. 
Probably the best way to resolve this issue that is available 
to us today would be to allow the Department of Interior to 
proceed with the reinventory that you first suggested last 
year, Mr. Chairman.
    I was pleased to see that Mr. Cannon's bill made several 
changes from the bill we considered in this Subcommittee last 
year. I was especially encouraged by the deletion of language 
that would have allowed various kinds of development in des-

ignated wilderness areas. Perhaps that can be the first step 
toward eventual agreement on the Utah wilderness question. Even 
if we have a very long way still to go, that first step would 
be good news.
    I believe it is particularly important today for me to 
address the issue of school trust lands, since my position on 
this has been misrepresented several times this year. I have 
seen some individuals quoted as saying that my bill does not 
provide for any exchange of the school trust lands that would 
be enclosed under my bill. That is not true. My bill does 
provide for such an exchange under the terms of FLIPMA (Federal 
Land Policy Management Act). What it does not do is prejudice 
any such exchange in advance. It says that any such exchange 
should take place on the same terms and under the same rules as 
the many exchanges that have taken place in other states since 
FLIPMA was enacted.
    I can well understand the interest of my colleagues from 
Utah and the people of Utah in expediting land exchanges. 
However, I have been disturbed by the suggestions some have 
made that my bill somehow stands in the way of land exchanges. 
There is no truth to that. One of the first bills our 
Subcommittee considered when I came to Congress in 1993 was a 
bill authorizing land exchanges in Utah, and I supported it. I 
understand that the Department of Interior and the State of 
Utah have reached agreement on about half of those exchanges.
    But if Utahns are concerned about delays in already 
authorized exchanges, or the possibility of delays in future 
exchanges, it is not up to me or supporters of my bill to 
respond to that issue. I am sorry that this hearing was 
announced and organized so rapidly that the Department of 
Interior was unable to appear. The Department--and only the 
Department--can comment on why land exchanges have not 
proceeded more rapidly in Utah.
    Just 2 months ago, Secretary Babbitt (while testifying on 
the establishment of the Grand Staircase-Escalante National 
Monument) commented that his state exchanged 2 million acres 
with the Federal Government during his tenure as Governor. It 
is my understanding that all of those exchanges took place 
under the rules established in FLPMA, and did not require 
legislation establishing new rules or a new process. The same 
thing has happened in other states.
    It is my understanding that most of the trust lands that 
would be enclosed and exchanged under Mr. Cannon's bill and 
under my bill are not currently producing revenue for the Utah 
schools, and that large portions of them would be unlikely to 
produce revenue in the future. According to testimony we have 
heard in the past, all the trust lands throughout the state--
not just those affected by either of these bills--produce less 
than 1 percent of Utah's total school revenues. So I think it 
is very unfair to suggest that any wilderness legislation is 
depriving Utah's school children of the education they deserve.
    As I said, however, I share the concerns of Utahns who want 
to see land exchanges expedited. But those exchanges won't take 
place until the larger question of wilderness designation is 
settled. That in turn won't happen until we move closer to an 
agreement on what lands qualify for wilderness designation. So 
I would strongly urge anyone who wants to see the lands in 
question exchanged to let the reinventory go forward.

    Mr. Hansen. I appreciate the gentleman's comments. Let me 
point out to the members who have arrived after we started, we 
are looking at H.R. 1952 by Mr. Cannon and H.R. 1500 by Mr. 
Hinchey. And I have recognized everyone but the gentlelady from 
Virgin Islands. I appreciate you being here.
    Ms. Christian-Green. Thank you, Mr. Chairman. I have no 
questions or opening comments.
    Mr. Hansen. Thank you; I appreciate your statements. To my 
good friend from New York, let me not take issue with you on 
anything but just point out that I think it was Mr. Babbitt who 
wanted to do the reinventory. And I won't go through the litany 
of how that occurred unless you want me to, but a very 
interesting goal.
    And as I said in my opening remarks, the Federal District 
Court in the State of Utah said he didn't have the right to do 
that. I don't know the status of the appeal or what is going 
on, but we will see what comes out of that interesting issue.
    We have two panels we want to have before us at this 
particular time. The first panel is composed of, if I can put 
my hand on it, three county commissioners from the State of 
Utah, Mr. Randy Johnson, County Commissioner from Emery County, 
Utah; Louise Liston, County Commissioner of Garfield County; 
and Joe Judd, County Commissioner of Kane County.
    They will be joined by John A. Harja, Vice Chairman of the 
Board of Trustees of Utah School and Institutional Trust Lands 
Administration. If we could ask those folks to come up, I would 
appreciate it.
    Mr. Gilchrest. Mr. Chairman, while they are coming up, can 
I ask Mr. Hinchey a very quick question?
    Mr. Hansen. I will recognize the gentleman from Maryland.
    Mr. Gilchrest. Mr. Hinchey, Mr. Cannon--and I don't want to 
speak for Mr. Cannon--said he wasn't wedded to the number of 
acres designated as wilderness--1 million, 2 million, even 5 
million. But prior to designation of wilderness, he had three 
issues--three key provisions--I am not sure if you are familiar 
with those three key provisions--dealing with the exchange of 
school trust lands.
    And you don't have to answer it now, but I think it would 
be interesting to see what you consider based on your 
understanding of your bill if you would consider Mr. Cannon's 
three key provisions prior to designating 5.7 million acres, if 
they could be included, let us say, in your legislation?
    The first one is before any land can be transferred, the 
school trust lands must first be exchanged; number 2, Utah 
School Trust Lands Administration would pick the unappropriated 
lands for trades rather than the Department of Interior; and, 
third, authorization authority to reimburse the School Trust 
Land Administration for their cost in conducting an exchange. 
If you are not familiar with them now, I would just be 
interested down the road what you think of those criteria prior 
to any designated wilderness.
    Mr. Hinchey. If the gentleman would yield?
    Mr. Hansen. Does the gentleman yield?
    Mr. Gilchrest. Yes.
    Mr. Hinchey. Let me say, Mr. Gilchrest, that I very much 
appreciate the gentleman from Maryland's interest in this issue 
and his raising those particular points. I am, of course, 
willing to consider any suggestion that is made by any member 
of this subcommittee on this particular issue, particularly 
suggestions, of course, made by either Mr. Cannon or by our 
Chairman.
    I am not in a position at this moment to give you an answer 
as to the specifics of each of those questions, but let me just 
say that I do not regard the issue of the school trust lands as 
an insoluble issue at all. First of all, it constitutes only a 
fractional part of this particular question.
    As I indicated in my opening remarks, all of the school 
trust lands right now at this particular moment provide less 
than 1 percent of all the revenue that is provided from the 
State to the school districts in Utah and, therefore, to the 
education of the children of Utah.
    So I do not regard this as a major aspect of this 
particular problem. However, to the extent that it is a 
significant issue, and it is an issue that has to be addressed, 
I am open to any suggestions and will consult and work with 
anyone to try to reach a reasonable solution.
    Mr. Gilchrest. Thank you very much.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Hansen. The gentleman from American Samoa has asked the 
gentleman from Maryland to yield.
    Mr. Gilchrest. Yes.
    Mr. Faleomavaega. I thank the gentleman for yielding. I 
just want to share with the gentleman the fact that in 1993 we 
did pass specifically a Federal law called the Utah School and 
Lands Improvement Act addressing this very issue. And I want to 
share with the gentleman the information.
    Basically, the information that I am given is that 3.6 
million acres of total land--school trust lands--1.5 million 
acres is State owned school trust lands. And I think what is at 
issue here is the fact that there are 630,000 acres that are 
within currently the Federal land. This is what we are--I think 
this is the concern that Congressman Cannon has indicated 
earlier.
    And I also want to share with the gentleman the fact that 
in the Hinchey version of the bill, it does address school 
trust lands to the effect that he suggests that the FLPMA and 
the Wilderness Act be the administering agencies of this 
630,000 acres that is at question. So I think from what I hear 
from my good friend from New York, we are open. We are willing 
to work what could be a solution to the problems that we are 
facing.
    But I want to remind my good friend that 1.5 million acres 
of this is State owned already--trusts--and maybe this is where 
the exchange or maybe the lack of exchange on the part of BLM 
as well as with the State of Utah--maybe this is what we need 
to focus on.
    Mr. Hansen. Let me comment that we have some real good 
experts on this issue that are going to speak to this in just a 
moment, and we are going to run out of time for the use of this 
room, which concerns me greatly because we have another panel 
after this panel. And so if the members could hold on to their 
questions, Mr. John Harja is considered the expert.
    And, John, with that in mind, I have set you up, and we 
expect you to respond to all of these things you have heard up 
here on the dais when the mike comes to you. But we are not 
going to start with you. We are going to start with Randy 
Johnson, and these folks have been before this committee so 
many times I start calling them members.
    But, anyway, they all know the rules, and from this point 
on, I am going to hold both the witnesses and the members to 
the 5-minute rule just in the interest of time. As you know, it 
is just like a traffic light in front of you; green, you go; 
yellow, you wind up; and red, don't run it--too far, anyway. 
But if you have got something burning in your bosom you have 
just got to say on any panel that is here, I normally will 
listen to that. So, Mr. Johnson, let us start with you, and we 
appreciate all of our witnesses being here on both of our 
panels. Mr. Johnson, the time is yours for 5 minutes.

STATEMENT OF RANDY JOHNSON, COUNTY COMMISSIONER, EMERY COUNTY, 
                              UTAH

    Mr. Johnson. Thank you, sir. So you are telling us to pay 
attention to this the way we pay attention to traffic lights in 
Utah. I understand that.
    Mr. Hansen. I want every witness to pull the mike up close 
to them. I always get in trouble when I ask witnesses to 
repeat. People think I am trying to cut them off and I am not 
so pull them up real close.
    Mr. Johnson. Thank you. On behalf of rural Utah's public 
lands counties, I want to thank you for holding this hearing 
today. The BLM issue in Utah has been in the works since BLM 
first began to inventory lands during the Carter 
Administration. The level of debate continues on a fevered 
pitch, and I believe it is long past time to act to bring the 
warring factions together.
    I am particularly grateful to Congressman Cannon for 
jumping into the fray and taking a strong leadership role. 
Specifically, the Cannon bill's emphasis on resolving the State 
school trust land impasse prior to the wilderness bill is well 
worth considering, and we can never truly have resolution until 
both trust lands and the road issues are resolved.
    In regards to wilderness, it is my belief that Utah's 
counties have acted from the beginning in good faith. Our 
Governor and congressional delegation asked us to conduct 
honest inventories of the land in each of our counties and to 
make recommendations following the parameters of the 1964 
Wilderness Act.
    We responded by conducting careful inventories and 
recommending those lands which truly met the 1964 Act 
requirements of possessing outstanding solitude, of being 
untrammeled by man, where man is a visitor who does not remain, 
and shall be roadless.
    Based on that criteria, just over 1 million acres of BLM 
land in Utah qualified. Even so, we recognize the political 
reality and have very reluctantly agreed to the congressional 
delegation's request to bring this figure to approximately 2 
million acres.
    Congressman Cannon's bill reflects that reality. Wilderness 
designations in areas which do not qualify under the 1964 Act 
is, in fact, a luxury which rural economies cannot afford and 
which is not in keeping with the intent of the 1964 bill.
    In all candor, Mr. Chairman, it would be nice if Congress 
would follow the written definition of wilderness which 
Congress itself created. However, if the sentiment of the 
Congress in 1997 is to change that definition, then it should 
do so in order that this process may remain intellectually 
honest.
    Is Congress moving into the business of creating 
wilderness? That is what we are doing with H.R. 1500. Those who 
tell us that once lost wilderness can never be regained are now 
telling us that if we close this road or that road, nature will 
eventually reclaim it. That is not what the Wilderness Act 
intended, and it is not right, nor is it necessary. Have we 
learned nothing in 30 years? Must we always begin our arguments 
as though it were 1970?
    I ask you to settle this issue by passing legislation 
setting aside those lands which do actually qualify as 
wilderness and then remain vigilant to ensure that the 
remaining lands are protected through FLPMA and NEPA and other 
Federal laws intended to guard our public lands.
    Environmental groups have arbitrarily chosen to ``tithe'' 
Utah; that is, to take approximately 10 percent of the land 
area of the State and offer it up as wilderness. These so-
called great defenders of the 1964 Wilderness Act have chosen 
to completely ignore it and to rely upon some arbitrary tithed 
number of 5.7 million acres, better known as H.R. 1500 or Mr. 
Hinchey's bill.
    To make matters worse, this Administration has chosen, with 
a wink and a nod, to instruct public land managers in the field 
to manage BLM lands in Utah at that 5.7 million acre level. 
Legally, BLM can only manage 3.2 million acres of BLM land in 
Utah, the amount the FLPMA process produced as an accurate 
figure for Wilderness Study Areas as wilderness.
    The deck is stacked against advocates of multiple use 
because until Congress finally acts, these lands will continue 
to be managed as wilderness. Environmental groups, therefore, 
cannot lose and have absolutely no incentive to negotiate.
    As the stalemate continues, lands can neither be protected 
as wilderness, nor managed and perhaps developed for their 
natural resource potential. Only to the extent that the 
development on public land occurs will royalties to the Federal 
Treasury be paid.
    Let me say that another way. Lands that do not merit 
wilderness status but which contain leasable minerals can, and 
I believe should, be developed following the strict 
environmental laws of the land. When this happens, everyone 
wins--taxpayers win.
    Deserving lands can be protected and lands rich in God-
given natural resources can be developed and then reclaimed in 
accordance with the environmental laws of the land. Isn't that 
how it should be, rather than our continuing in a never-ending 
stalemate?
    I am out of time. I believe and in my opinion we have come 
the full cycle in this longstanding battle. The protectors have 
become the defectors. And in an effort to perpetuate 
themselves, the land, and the multitude of protections which 
exist for the benefit of that land are secondary to the war 
itself. Keeping the contention alive ensures their continued 
existence and the work of 30 years is ignored and a continued 
flood of misinformation and rhetoric.
    We must dispel once and for all the idea upon which some of 
them have built their empires that it is wilderness or 
degradation, wilderness or bulldozers, wilderness or reckless 
strip mining. We want to and are anxious to protect this land 
but wish to do so under the laws that exist in a sensible 
manner. And we would hope that you will bring this to 
resolution so that we may do so. Thank you very much.
    [Prepared statement of Mr. Johnson may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Commissioner Johnson. We will now 
turn to the Commissioner from Garfield County, who I would also 
like to point out to the panel is also an expert on school 
trust land. In fact, she sits on the School Trust Land Board, 
and so besides John Harja, you can ask Louise Liston anything 
about it, and she will give you the correct answer; at least 
that is how I found it working with her over the years. Having 
set you up now, Commissioner, we will turn the time to you.

   STATEMENT OF LOUISE LISTON, COUNTY COMMISSIONER, GARFIELD 
                          COUNTY, UTAH

    Ms. Liston. Thank you, I guess. I appreciate your concern 
and also your support, Mr. Chairman. And I wish to express my 
gratitude to you for holding yet another hearing on this 
wilderness issue in your subcommittee today.
    I would also feel remiss if I did not thank Congressman 
Cannon. He has proven to be a tireless worker on the monument 
issue and with the introduction of H.R. 1952. He now puts 
before the Congress of the United States legislation which the 
people of rural Utah can, with some reservations, live with.
    Mr. Chairman, let me say this about BLM wilderness. We the 
people of southern Utah want the issue resolved, but we are not 
now, nor will we ever be, willing to agree to legislation that 
destroys our livelihoods and way of life simply because we are 
tired of the conflict.
    All of the issues--BLM wilderness, the new national 
monument, RS 2477 roads, State school trust lands, actual 
development of coal, oil, gas, and other mineral reserves on 
public lands--all of these issues must be taken into account 
and resolved equitably before we will consider the controversy 
settled.
    We have always been willing to participate in the public 
process and have played by the rules. We regret that the 
President of the United States and his Secretary of the 
Department of Interior have not. To now consider adding 
millions of new acres of BLM wilderness in our counties without 
taking all of these issues into account would be unconscionable 
for us.
    Without beating around the bush, we hear that there is talk 
of using this 2.1 million acre wilderness bill as a starting 
point and split the difference with advocates of H.R. 1500 at 
around 3.2 million acres. We hear that because some are tired 
of dealing with the issue, a 3.2 million acre bill sounds 
appealing because it would placate environmental groups. The 
fact is, Mr. Chairman, Secretary Babbit is, as Commissioner 
Johnson has said, illegally managing 5.7 million acres of BLM 
lands in Utah now as de facto wilderness.
    It may be politically expedient to cut a deal at 3.2 
million acres, but on the land where we live, that amount of 
wilderness, on top of the restrictions imposed by the creation 
of a 1.7 million acre national monument, on top of the 
restrictions imposed on us by four adversarial lawsuits over RS 
2477 rights-of-way, will effectively place us into a permanent 
position of servitude.
    Rural Utahans are aware that only about 1 million acres of 
land in the State qualify for wilderness under the definition 
of the 1964 Act. We have agreed to double that amount for 
political reasons. If Congress chooses to raise the acreage 
total to 3.2 million acres or higher and ignores the 1964 
Wilderness Act criteria entirely, then it is time to amend the 
Wilderness Act to conform to reality.
    If not, then Congress should adhere to the laws it passes 
and be honest with the American people. Please don't ask us to 
call something wilderness that does not fit wilderness 
criteria. If members of this Committee are going to change the 
rules, then I recommend that Congress should first consider 
changing the 1964 law.
    Look at reality one more time. Sixty-seven percent of Utah 
is federally owned. The lands being managed as Wilderness Study 
Areas now constitute over 20 percent of the Federal lands in 
the State. All told, 40 percent of the Federal lands in Utah, 
not including Indian reservations and military restricted 
areas, are effectively off limits to multiple uses.
    An additional 13 percent of the lands in Utah are State 
school trust lands. Please understand these school trust lands 
are restricted to whatever use is deemed appropriate by the 
surrounding Federal land manager. That is why we only have less 
than 1 percent of the uniform school fund is generated by our 
school trust lands. We are locked into a sea of Federal lands, 
and we are islands in that sea.
    While I am hopeful enactment of Congressman Cannon's bill 
means educational interests in Utah may finally receive the 
attention they deserve and actual exchanges take place, let me 
point out something many Members of Congress and many 
environmental groups absolutely do not want to hear.
    That is, in order for any Federal-State land exchange to 
mean anything, school trust lands have to be explored and 
developed. Some courageous company or companies may invest 
capital in a coal-mining project or an oil-drilling operation 
and may actually develop the resource in order for any money to 
go to the school children of Utah. Let me say that another way. 
It is the royalties paid as a result of natural resource 
extraction which will fill the coffers of the State school 
trust.
    As of today, less than 1 percent of the State school budget 
is derived from such development. Utah spends a higher 
percentage of its State budget, 80 percent, on education, 
higher than any other State. At the same time, Utah is dead 
last, 50th in per capita spending on education, in large part 
because it cannot tax its people any more without driving 
individuals and industry out of the State. If school trust 
lands are to contribute in a meaningful way, development must 
occur.
    For those environmentalists who are now going ballistic, 
please know that all of the applicable environmental laws 
governing development on public lands--all of them still apply. 
So let me conclude by saying Garfield County supports 
Congressman Cannon's bill as the one which comes closest to 
portraying things the way they actually are on the land. It 
contains more wilderness than the 1964 Act definition allows, 
but we believe we can survive under the terms.
    If I have been blunt in my testimony then, Mr. Chairman, I 
plead guilty. This is the way things really are. You know it 
and I know it. What we seem to be dealing with in the Utah 
wilderness debate is an endless parade of dancing around the 
truth, and I, for one, am tired of it. I stand ready to help 
you pass this legislation in any way that I can. Thank you.
    [Prepared statement of Ms. Liston may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Commissioner. I hope the members of 
the Committee when you look at these three commissioners down 
there realize that they represent the majority of land in both 
those bills right there. And so I am talking about somebody on 
the ground. We are honored to have Commissioner Joe Judd from 
Kane County with us. Joe, we will turn the time to you, sir.

 STATEMENT OF JOE JUDD, COUNTY COMMISSIONER, KANE COUNTY, UTAH

    Mr. Judd. Thank you, Mr. Chairman. On behalf of the people 
of Kane County, I would like to express my gratitude for your 
holding these hearings. It seems like old home week, we have 
been here so many times.
    I would like also to add my thanks to the Committee and to 
Congressman Cannon for what he said this morning in trying to 
resolve the issues of both Kane and Garfield Counties and 
making those things his first order of business in the 
Congress. Congressman Cannon is off to a good start with both 
his actions and a great blessing that we receive on the Grand 
Staircase-Escalante National Monument and hopefully with these 
BLM issues also.
    Mr. Chairman, we are down where the rubber meets the road 
regarding this wilderness issue. We would like to have them 
resolved. We would also like to have this new monument issue 
resolved, as well as the RS 2477 issues, as well as State 
school trust lands, actual development of coal and gas and 
other mineral reserves on public lands. All of these issues 
must be taken into account and resolved equitably before we can 
consider the controversy settled.
    We have always been willing to participate in a public 
process and have enjoyed, if not been anxious, to play by the 
rules. To now consider adding more and millions of acres to the 
BLM wilderness to our county without taking any of these things 
into consideration is really unconscionable to us.
    The people of southern Utah are aware that about a million 
acres of the land still qualify as wilderness in the definition 
of the 1964 Act. We have agreed to double that to try to make 
this a political compromise, to make it work in our counties. 
We have entered into a partnership with the BLM trying to make 
the new monument work in our counties. Please don't ask us to 
do something that is entirely unreasonable.
    Kane County cannot live with a political solution that 
ignores the 1964 Wilderness Act criteria and simply should try 
and get the bill passed. We have also made an opportunity known 
to those who are willing to listen that there are certain 
special interest groups that have made a lot of money trying to 
keep this controversy alive.
    In Kane County, the combined impacts of the new national 
monument, with the additional BLM wilderness of about 2.1 
million acres, and the problems that RS 2477 puts before us 
nearly puts us out of business. It is already clear the Federal 
Government wants to relegate southern Utah's economy to a 
seasonal economy based on tourism. And, again, if pumping gas 
and selling hamburgers and making beds could get it done, we 
would have had it done a long time ago. It just doesn't work.
    Our ability to provide for ourselves has been taken 
regardless of what happens with this bill. We are the ones who 
must provide the services to all of the visitors who will come 
and are already coming to the national monument. Adding the BLM 
wilderness within the monument is legislative overkill, and it 
makes it doubly tough for us to provide the services we are 
mandated by law to provide.
    Again, let me consider the realities before you stick it to 
us one more time. Our people have been beaten over the head by 
the Fed-

eral Government so many times I marvel at their ability to be 
able to take it and get up again. We no longer control our own 
destiny so at least help us minimize the future pain and 
provide us with the means to make every harsh socioeconomic 
climate in our communities from where I come.
    Finally, let me add my support to Congressman Cannon's bill 
from Kane County and place his resolving the issues of the 
school trust lands. We in Kane County have already lost and are 
willing to stand many more losses if these resolutions will 
come to fruition.
    The opportunity for the school trust lands to gain monetary 
value, along with the Counties of Kane and Garfield, were taken 
from us with the Andalex Smokey Hollow Mine project. That would 
have been worth some $600 million to the school trust land over 
the life span of the mine.
    That illustrates the project point, however, for any future 
exchange. The point is that it is not the exchange of the lands 
between the State and the Federal Government alone which 
provides revenues for the school children of Utah. It is the 
development and actual mining, drilling, or some other 
extractive activity by royalty-paying companies which brings 
money into the State school trust.
    Pro education environmentalists can't have it both ways. 
Either we develop the lands and put the money into the hands of 
the school children and their teachers, or we remain purists 
and leave the school trust lands undeveloped.
    This bill addresses the issue of education, while 
Congressman Hinchey's bill does not. Congressman Hinchey and 
his supporters should consider the realities I have just 
mentioned, unless they really don't care about the Utah school 
kids and the teachers' salaries.
    Mr. Chairman, I thank you for the opportunity to be able to 
testify and especially to be on a panel with the colleagues 
such as Commissioner Johnson and Commissioner Liston and along 
with John Harja. I appreciate this very much. Thank you.
    [Prepared statement of Mr. Judd may be found at end of 
hearing.]
    Mr. Duncan. [presiding] Thank you very much, Commissioner 
Judd, for being with us again. It is an honor to have you, and 
it is also a privilege to have with us the next witness, Mr. 
John A. Harja, who is the Vice Chairman of the Board of 
Trustees for the Utah School and Institutional Trust Lands 
Administration. Mr. Harja.

 STATEMENT OF JOHN A. HARJA, VICE CHAIRMAN, BOARD OF TRUSTEES, 
    UTAH SCHOOL AND INSTITUTIONAL TRUST LANDS ADMINISTRATION

    Mr. Harja. Thank you, Mr. Chairman. It is amazing to me to 
sit here today as Vice Chairman of the Board of Trustees and 
listen to all the fine Congresspeople mention school trust 
lands. I came here in 1992 to push a bill that was enacted, 
thank you, and nobody knew what they were. So it is fun to sit 
here and be able to talk school trust lands.
    I am just going to toss my comments out and try to respond 
to some of the things that have been said. The education budget 
in the State of Utah in 1996 was $1.5 billion. Less than 1 
percent of that is still a lot of money.
    The population of Utah is just over 2 million people. The 
population under 18 is 34.6 percent, which is first in the 
Nation. We have a lot of kids. Everybody knows that in Utah. 
The average teacher's salary was approximately $31,000, 43rd in 
the Nation. The State and local education spending per $1,000 
of personal income was $90, 3rd in the Nation.
    That is our situation. The taxes that are collected on 
education are very high. There are a lot of kids. The education 
system is busy. School trust lands are a portion of that. They 
are a small portion now, but they are a portion.
    The State of New Mexico was mentioned, how so much money 
could be in that fund. It is a matter of history. It is a 
matter of luck. It is a matter of good work. The Spanish land 
grants in New Mexico caused lands to be moved--the school trust 
lands--immediately on statehood. They didn't have to wait till 
1997. They were just moved.
    And then it turns out oil and gas was discovered at shallow 
depths immediately, and a lot of money was funneled into that 
fund right away. And they have a large one, and it generates 
around 25 percent of their education budget.
    Utah didn't have that luck. Our lands are still scattered. 
And, as the Congressman mentioned, a lot of our resources are 
deeper, harder to get to, more remote, and all the things that 
are mentioned.
    We have not had an exchange in Utah in 30 years, nor do we 
have any under agreement today. The last ones that occurred 
were basically Canyonlands National Park that occurred in the 
1960's. And everybody just got together and said we need to 
move these, these lands are approximate equivalent value, and 
they moved them. It was done.
    Mr. Babbitt mentioned, when I was here last on the 
monument, that a whole bunch of appraisals have been done and 
there are agreement on many of them. I am going to tell you 
that is false. At this point in time, we have maybe 12 tracts 
out of 550 where the values on both sides appear to be the 
same.
    That is, both sides look at the value and say we can live 
with that. That is as far as we have gotten. It isn't to say we 
are not going to get any further. We are going to get this 
thing done. We are committed to it. It is a long, expensive 
process.
    Mr. Babbitt mentioned 2 million acres in Arizona. I don't 
want to dispute the Secretary. Our information indicates it is 
more like a million acres. And, frankly, if you give us the 
kind of flexibility for the BLM that they had in Arizona, we 
will get this done tomorrow. That is what it takes. In Utah, 
the flexibility to look at appraisals in the sense of the 
uniform nationwide standards is not there.
    In fact, if I can really tell you some things here, it is 
our view the Federal Government is purposefully exerting 
influence on appraisers to come in at low values. I was at a 
conference yesterday. Appraisers were getting together to talk 
about appraisals in terms of remote areas, wilderness, national 
parks.
    And a gentleman from the United States Forest Service sat 
down on the panel and said, ``These are the rules. If you don't 
play it by our rules, which are restrictive rules and which do 
not allow for appraisals that look at conservation as the 
highest and best use, you will not do business with us.'' This 
was an overt threat to these folks and their economic 
stability. There was no question about it.
    Why should that matter? The industry is moving that way. 
The markets are moving that way. In this country, we believe in 
capitalism. The markets are moving toward--if there are buyers 
and sellers, that represents the markets. The Federal 
Government agencies do not like this. They are attempting to 
stop it. It makes sense. It is going to cost them money 
perhaps. But if they are going to influence the market like 
that, they are not going to find a lot of people playing.
    So, in our view, I have a fiduciary duty as a member of the 
Board. I have to look for a fair sense of equal value. I don't 
find that I get it from the current appraisal techniques. It is 
hard fought, and we will fight it. We are probably going to 
have to go to the judiciary to reach conclusion but we will do 
that because we want to get this done.
    Therefore, I appreciate Mr. Cannon putting in this bill 
some other ideas that basically come from Project Bold and from 
the whole sense of if it was taken before, you get something 
else instead. We would just say we appreciate the idea that 
wilderness will not be declared until those exchanges are done. 
You could add that to any number of the other issues. I don't 
care.
    But in terms of us, if you take it, we want something else. 
We are not going to say that we have low potential minerals, or 
we are going to take a producing oil field. We want equal value 
or approximately equal value. But give us something else and 
give us a fair process to get there. Mr. Babbitt apparently 
used swapping low potential lands for low potential lands--
mineral potential. We will live with that. That is fine.
    And the other thing we need have is keep the Feds at the 
table, and that is what FLPMA does not do. The Feds feel free 
anytime that they think they are not getting their way, they 
will walk away from the table, and all the work that goes into 
that exchange is tossed down the tubes. You need to keep them 
at the table. So with that, Mr. Chairman, my time is up, and I 
hope I am the expert you expected. But, if not, I can answer 
questions.
    [Prepared statement of Mr. Harja may be found at end of 
hearing.]
    Mr. Hansen. [presiding] Well, thank you very much; 
appreciate your comments. We will recognize the members of the 
Committee and our two colleagues from Utah for 5 minutes each. 
We will start with the gentleman from American Samoa.
    Mr. Faleomavaega. Thank you and I do appreciate the 
testimonies borne by the commissioners from these several 
counties representing the State of Utah. You probably heard 
earlier our dialog with Congressman Cannon and Congressman 
Cook, and I think I have had the privilege of also hearing your 
testimonies from previous hearings.
    My understanding is that there is currently a total of 3.6 
million acres in the whole State of Utah that are school trust 
lands. How much acreage of that do you feel should be exchanged 
if there is--my understanding is that 1.5 million is State 
owned?
    Is the problem here in the fact that some of these school 
trust lands really have no value, or is it because it is not 
situated in such a way that it could get the best monetary 
value for it if an exchange does take place with these Federal 
agencies?
    Mr. Harja. Mr. Congressman, there are 3.7 million acres of 
school trust lands and an additional 1 million acres of 
mineral-only lands in the State of Utah. They are school trust 
lands. They are scattered. If you look at your map, they are 
scattered like buckshot over the State.
    There is no question that we are dependent upon the 
resource activities for the vast majority of our money. We make 
about $18 million a year right now. That is going up 
dramatically. Most of that is minerals. If the surrounding 
Federal lands are not available, there is not a lot we can do 
about it.
    If you look at the revenues in the Wilderness Study Areas 
over the 15 years that they have been Wilderness Study Areas, 
they have declined--the revenues to the school trust because 
industry is not willing and can't to get the surrounding 
Federal lands. So it is a matter, as I said, like in New 
Mexico, a little bit of luck and a little bit of where you are.
    A lot of our lands that have been blocked up are near 
cities, the city of St. George. And we are doing good things 
with those lands now, and a lot of our money is starting to 
come from those lands. We would love to move, but we need to 
move into those kind of areas. So it isn't that they have low 
value necessarily. It is, as the commissioners pointed out, we 
need the opportunity to get to development to find out what is 
really there.
    And a lot of these studies that go on about it is not 
economic or not are nice, but as any mining engineer can tell 
you, you don't know what is there until you gut it out of the 
ground. And that is where the money comes from, and that is 
where the trust needs to head toward.
    Mr. Faleomavaega. And one of the problems, as I recall from 
Commissioner Liston, your county is very much rural; rural in 
the sense that you are scattered out all over the State, and 
you are talking about farmlands, ranchers populationwise in 
your county is very limited, I suppose, compared to West Jordan 
or Granite County, if there is such a county--is there a 
Granite County? School district--Granite.
    So populationwise, you are very, you know, hard-ridden in 
that sense that because of the rural area, you don't have much 
population as a tax base. And so because of that, it makes it 
very difficult even to support a school system that you have in 
your county.
    Ms. Liston. That is very true. We have less than 2 percent 
of the land base that is actually taxable. Ninety-eight percent 
is State and federally owned. And so it is virtually 
impossible, and yet we handle the services for close to 3 
million visitors a year with a population of 4,000 people.
    And if you don't think that handling those visitors 
detracts from the law enforcement and the fire protection and 
so on in our local communities, guess again, because we suffer 
when tourism starts. Because when those visitors come, then it 
takes away from our local services. And we do suffer in many 
ways.
    One thing I wanted to address with your other question was 
ingress and egress. I mean, when you develop, you have to have 
a way to get in and a way to get out. And when you try to do 
that over Federal lands nowadays, you are talking about an 
impossibility in many instances of doing that, especially if 
you are talking about wilderness areas. And although the State 
does have case law that says that they can have access to their 
school trust lands, it is still a major battle to get that 
done.
    Mr. Faleomavaega. Thank you, Mr. Chairman. My time is up.
    Mr. Hansen. The gentlelady from Idaho.
    Mrs. Chenoweth. Thank you, Mr. Chairman. I wanted to direct 
my question to Mr. Johnson. You quoted the 1964 Wilderness Act, 
that the wilderness must possess outstanding solitude, of being 
untrammelled by man, where man is a visitor who does not 
remain. Within that frame of reference, you stated that only 1 
million acres of BLM land qualifies. Would you mind expanding 
on that for the record?
    Mr. Johnson. Yes, I would be happy to do that. The 
commissioners, in their mandate from the delegation members and 
the Governor, went out and reexamined those lands that had been 
set aside, those Wilderness Study Areas, as well as lands in 
H.R. 1500, which had the potential to qualify as wilderness 
under what would become the Utah Wilderness bill of a year ago, 
as you recall.
    And we examined those lands for conflicts and for man's 
imprints, and the 1 million acre recommendation that we gave 
back to the delegation was based on those lands that we could 
identify that had none of those conflicts, that were 
specifically spelled out in the 1964 Wilderness Act.
    In other words, there were no roads or ways. We didn't get 
into the argument is that a way or a road. We simply identified 
an imprint of man, and we excluded that area. And we pulled 
those acreages back to those areas which were genuinely 
pristine in every way, and that is where that 1 million acre 
recommendation from the counties came from.
    The lands that would be within this 2 million acre package 
are certainly beautiful and deserve protection, and many of the 
lands outside of that deserve protection. But what we are 
saying is that there are so many levels of Federal law that 
protect those lands now that wilderness is not necessarily the 
appropriate application in all of those situations. And our 
initial 1 million acre recommendation was simply drawing back 
to the exact specific wording of that bill.
    Mrs. Chenoweth. In the description of the lands that will 
be set aside in 1952, there are several pages of different 
sections of lands. Do you believe that all the lands that would 
fall under the 1964 description have been addressed in this 
bill? I mean, I have heard those of you who are commissioners 
express concern that this is going to go on and on and on and 
on. And I appreciate your tying it back to the original 1964 
Act.
    Mr. Johnson. So your question is have we addressed all of 
the lands? Yes, ma'am, we certainly have. We have walked those 
lands, driven those lands, flown over those lands a multitude 
of times, and have used our satellite locators to be sure that 
we identified the roads and the conflicts. And we have 
addressed all of those lands, as a matter of fact.
    And we feel comfortable in recommending those lands for 
wilderness status even though, in our opinion, wilderness is 
not protection. We believe that there are far better ways to 
protect land and to manage it than wilderness, but we are 
comfortable with making that kind of a recommendation and feel 
that we have adequately scoured those lands for those imprints.
    Mrs. Chenoweth. So would you be comfortable then in adding 
after the descriptions--I had it right here before me--where it 
says in the release language--yes, in the release language that 
all other lands shall be released for multiple use under FLPMA 
and the other references that are made here with language that 
says hereinafter and forevermore which States that ends it?
    Mr. Johnson. We would not only be comfortable, that would 
be our strong preference. Yes, ma'am.
    Mrs. Chenoweth. I also wanted to ask Mr. Harja, is there a 
national indicator by which we can establish equivalent value?
    Mr. Harja. The standards are set by the various appraisal 
groups. There are standards of what constitutes an appraisal. 
There are standards of what is fair market value. That is what 
we use.
    Mrs. Chenoweth. And what are the names of those standards? 
Is it a western standard?
    Mr. Harja. No. It is the Appraisal Institute and the other 
nationwide groups of groups of appraisers. It is an industry 
group. They set the criteria for themselves on what constitutes 
an appraisal and what has to be in an appraisal.
    Mrs. Chenoweth. So if the equivalent value were also hooked 
to a national indicator----
    Mr. Harja. That would be fine with us.
    Mrs. Chenoweth. [continuing] do you think that would be 
fair?
    Mr. Harja. I think it is already sufficiently hooked to it. 
It is fine. It is just that the Federal Government is 
attempting to say what is a market and what isn't.
    Mrs. Chenoweth. In the language of the law where it states 
the State of Utah shall be entitled to select unappropriated 
public lands of equivalent value, if there was an indicator 
hooked to that?
    Mr. Harja. If the Congress could say in terms of mineral 
potential--if the United States Geological Survey says this 
area is low potential and this area is low potential for 
whatever, we would be happy to swap within that standard or 
high potential. I don't want to indicate to you we want to take 
a low potential the State owns and trade into high. That is not 
fair.
    Mrs. Chenoweth. No.
    Mr. Harja. We just want to go across. That would work.
    Mrs. Chenoweth. That is right. Thank you very much.
    Mr. Hansen. The gentleman from New York.
    Mr. Hinchey. Thank you very much, Mr. Chairman, and I want 
to express my appreciation to the panel of witnesses for their 
being here today and for bringing to the subcommittee their 
particular perspective on this issue. It is very important to 
us and very en-

lightening to hear your perspective on it. And I very much 
appreciate you taking the trouble to do so.
    I just want to ask a couple of questions of Mr. Harja, if I 
may, with regard to the school trust situation. First of all, 
could you tell me roughly what percentage of all the lands 
owned by the school trust would be encumbered by either of the 
two bills that are the subject of this hearing?
    Mr. Harja. Well, in H.R. 1500, I have been told it would be 
anywhere from 650 to 700,000 acres. The total acreage we own is 
3.7 million. I can't do the math right in my head but----
    Mr. Hinchey. And with the other bill?
    Mr. Harja. It would be around 200,000 acres approximately.
    Mr. Hinchey. Now, you say you have been told. Can you tell 
us what authority that is who gave you that information?
    Mr. Harja. The 600,000 acre figure I took out of the 
``Wilderness at the Edge'' book. The 200,000 acres----
    Mr. Hinchey. And the 200,000 acre figure?
    Mr. Harja. Is just an approximate looking at the map and 
counting.
    Mr. Hinchey. So that is not an accurate figure?
    Mr. Harja. No, no.
    Mr. Hinchey. It is just a rough approximation. Is it 
possible to arrive at a more accurate figure?
    Mr. Harja. Certainly, if we knew the boundaries of all of 
them exactly, we would simply go and do a GIS map and count. 
And then we would go through our records, which are automated 
now, and add them up.
    Mr. Hinchey. OK. It might be interesting for us to have 
that figure if it is not too inconvenient for you or too 
difficult for you to arrive at it.
    Mr. Harja. No, it is not. In fact, when the monument was 
declared, we immediately set to work, and that is how we 
focused in on 176,000 acres of trust lands in the monument.
    Mr. Hinchey. OK. So you will provide the committee with 
that number when you can come up with it?
    Mr. Harja. Yes, sir, I will do that. Yes, sir.
    Mr. Hinchey. I appreciate that very much. Can you tell us 
how much revenue all of the remaining school trust lands that 
are producing today--how much they are producing today? I am 
referring to income derived from the lands themselves, not from 
financial assets of the trust.
    Mr. Harja. The annual income stream this last year was $16 
million, and next year we are projecting $18 to $19 million.
    Mr. Hinchey. Sixteen and next year $18--$19?
    Mr. Harja. Yes.
    Mr. Hinchey. And that represents then 1 percent of the 
amount of money----
    Mr. Harja. No, sir. That money is put in the permanent 
fund, and the interest off the permanent fund less an inflation 
factor represents the 1 percent.
    Mr. Hinchey. OK. Thank you very much. Earlier this year, 
the school trust took an ad in ``Roll Call,'' sort of the Hill 
magazine around here--newspaper, which criticized H.R. 1500. 
Subsequently, Mr. Terry and other representatives of the school 
trust came to Washington and conducted a staff briefing. It was 
rather sparsely attended, but, nevertheless, there was a staff 
briefing in this building about the school trust problems.
    At that briefing, Mr. Terry acknowledged that H.R. 1500 was 
not actually causing any problems for the school trust now, 
that it isn't likely to be considered in this Congress. That is 
to say the bill is not likely to be considered in this 
Congress, and that the problem of enclosed or encumbered trust 
lands would exist even if that bill, H.R. 1500, had never been 
introduced.
    So I just have a couple of general questions with regard to 
the lobbying effort that is taking place centered around H.R. 
1500. H.R. 1500 has been around for 8 years. No action on it is 
expected this year. What is the cause of the lobbying effort at 
this particular moment? What gives rise to it?
    Mr. Harja. Congressman, you are right. It has been there 
for 8 years. We have constantly said you need to put a trust 
lands provision in the bill. We appreciate the language you 
have now. We don't think it is sufficient. We felt we were 
being ignored so we felt like we needed to come here and make a 
statement, and that was the statement that was made.
    Mr. Hinchey. You say the language in the bill now is 
sufficient?
    Mr. Harja. No, it is not.
    Mr. Hinchey. Is not sufficient?
    Mr. Harja. No.
    Mr. Hinchey. OK. Well, I would be interested to hear from 
you, you know, what language you thought--not at this moment, 
but what language you thought would be sufficient. We would be 
happy, of course, to take a look at that.
    Mr. Harja. Congressman Cannon's language is a good start.
    Mr. Hinchey. Well, I would like your perspective on it.
    Mr. Harja. Congressman Cannon's language is a good start.
    Mr. Hinchey. Well, if you want to present me with your 
alternative, I would be happy to receive it. If you don't, that 
is fine also.
    Mr. Harja. I will do that.
    Mr. Hinchey. What is the origin of the plan? Who conceived 
of the lobbying plan? Was it developed solely by the people who 
work for the school trust?
    Mr. Harja. Yes.
    Mr. Hinchey. Was Conoco involved in the plan in any way?
    Mr. Harja. No.
    Mr. Hinchey. They had no interest in it and were not 
involved in it?
    Mr. Harja. No, not a bit.
    Mr. Hinchey. OK. There was a Utah newspaper which quoted 
Mr. Terry as saying, ``I met with a member of my staff''--that 
is, my staff--``earlier in April to explain the trust land 
situation.'' That is the end of that quote.
    In fact, a member of my staff attended Mr. Terry's briefing 
when he was here at that time, and Mr. Terry seemed quite 
surprised by his presence. At no time in the 4 years since I 
introduced H.R. 1500 has any representative of the school trust 
asked me to meet with them or meet with my staff.
    Mr. Terry was further quoted in the paper as saying that I 
may plan--the quote is, ``A plan to ignore trust land issues 
altogether.'' That I think is, frankly, a misrepresentation of 
the bill that I introduced, H.R. 1500. Mr. Terry and his 
attorneys I think really know that--and also a 
misrepresentation of what was said at that unrequested meeting. 
My question is will someone, you or Mr. Terry, set the record 
straight on that?
    Mr. Harja. I would be happy to. I was here. It was in this 
very room. As we explained, we felt we were being ignored, and 
we were very happy to have your representative there. And he 
indicated if we wanted to, we could come try to see you.
    Our interest is fulfilled by this hearing. Almost every 
single one of the Congresspersons and members here have spoken 
of school trust lands. I certainly hope the next panel will 
speak of them. We want to resolve this issue. We would like to 
find a standard solution that works.
    Mr. Hinchey. Well, we share that objective. I would like to 
resolve the issue also. As I have indicated, the bill was 
introduced 8 years ago before I got here. I would like to see 
it resolved at some reasonable point in the future as quickly 
as possible.
    But I do want you to know, and I think you do know, that I 
personally am available to you or anyone else who wishes to 
meet with me on this particular subject. My staff is available 
to you under the same circumstances; that is, we are always 
available to you. No one had contacted us. Therefore, there was 
no way for us to know that there was anyone who thought they 
were being ignored.
    And I just want to assure you that we have no intention of 
ignoring you, have not ignored you in the past, will not ignore 
you in the future. Any concerns that you want to bring to our 
attention, we will be happy to look at them and to consider 
them in great detail.
    Mr. Harja. I will try to see you very soon and explain our 
concerns to you.
    Mr. Hinchey. OK. Thanks very much. I appreciate it.
    Ms. Liston. Could I just please----
    Mr. Hansen. The time of the gentleman has expired. The 
gentleman from Utah, Mr. Cannon.
    Mr. Cannon. Louise--I am not sure if I should call you 
Louise or Mrs. or Commissioner.
    Ms. Liston. Whatever.
    Mr. Cannon. My dear friend, you have a comment. Would you 
like to make that?
    Ms. Liston. I just wanted to point out that one of the 
reasons for the renewed interest was that 2 years ago the 
school trust board was replaced by a new administration which 
is called the School and Institutional Trust Lands 
Administration. And a seven-member board was created, and that 
was done for the purpose of doing a better job of bringing 
revenues into the school trust fund. And we have been working 
very hard at doing that the last 2 years, and I think that 
probably generated a lot of the interest that has gone on.
    Mr. Hinchey. Thank you. I certainly understand the 
underlying motive for which that action swings in that case, 
and I thank you.
    Mr. Cannon. Mr. Harja, could you tell us a little bit about 
the recent exchange of school trust lands in Arches, what the 
process was, how long it took, and what some of the pressures 
there were?
    Mr. Harja. You are referring to the exchange involved in 
your proposal to add----
    Mr. Cannon. To expand the Arches, yes.
    Mr. Harja. Not the other exchange. We are engaged in 
another exchange.
    Mr. Cannon. If you could talk about both of those, I would 
appreciate it.
    Mr. Harja. There are school trust lands in Arches that were 
captured when it was a national monument and then became a 
national park. They have been there for decades. A number of 
years ago, about 8 years ago, we went down there to talk to the 
Park Service personnel about doing something about them. And 
the Park Service personnel said, ``We don't want to do anything 
about them. They are already ours.'' So that was an initiation 
of an attempt to exchange.
    Mr. Cannon. Did you say the Park Service said, ``We don't 
want to exchange them. They are already ours''?
    Mr. Harja. That is correct. It was a seasonal----
    Mr. Cannon. By that you mean because they are incorporated 
within the park----
    Mr. Harja. Yes.
    Mr. Cannon. [continuing] they had the benefit of those 
school trust lands without paying for it?
    Mr. Harja. That is what they said. The leadership of that 
park subsequently recanted that statement. However, what it 
represents is a feeling that this was not a problem. This was 
about eight--nine years ago. That is why I am so pleased here 
today that people are paying attention to the issue.
    In an attempt to exchange in a fair market value sense, an 
equal-value-for-equal-value exchange was passed by this 
Congress in 1993, and we have been at it ever since. We have 
been appraising. We are now to the point we have, in fact, had 
a first meeting where we are arm wrestling the Feds over what 
the real value is. This is a negotiation, and we hope to 
conclude that soon. We may have to go to the judicial and ask 
for their advice.
    The more recent effort of the Congressman is to add a 
little bit to the park. There is one section inside it. And, 
once again, the BLM is looking very carefully in much too much 
detail and stalling in the sense of figuring out what the value 
is, and we just simply want to swap it. You take this one, and 
we will take that one over there. It is equivalent value--
minerals--and all that sort of thing, and nothing ever seems to 
get done. And that is why you need to keep them at the table.
    Mr. Cannon. There is a fairly high incentive to make this 
recent trade where we would be expanding the park because that 
is not part of the park inventory right now, but the current 
park leadership wants that expansion to happen. Is that the 
reason we were able to actually consummate a trade?
    Mr. Harja. Yes, sir. The exchange is not consummated yet as 
far as I can tell.
    Mr. Cannon. But that is why we have gotten close to it?
    Mr. Harja. We are getting as close as any other. We are 
also extremely close to an exchange of desert tortoise land 
near St. George. But, once again, as the appraisals are 
becoming done, a Federal review appraiser interfered in the 
process, and that stalls things even more.
    Mr. Cannon. Maybe we ought to have a hearing where we ask 
those questions of the appraisers and their hierarchy. Just one 
final question. Mr. Hinchey's bill refers to FLPMA as the 
exchange mechanism. The bulk of what you are saying, the thrust 
of your testimony is that that does not work. Is that correct?
    Mr. Harja. The structure is there or the structure should 
work. What we find in practice is that it becomes bogged down, 
and, ``If you don't do it our way, we won't play. We will take 
our marbles and run,'' they being the Feds. And we need to keep 
them at the table, and we need a serious way to resolve 
values--differences in value. And that is the subset of the 
same problem.
    Mr. Cannon. Thank you, Mr. Harja. Commissioner Liston, you 
mentioned that my bill actually incorporates more land than 
would be justified by your understanding of the law and the 
description of what would be encompassed by that. And then you 
said that for political reasons, you have been willing to go 
with a larger amount of land.
    And, Commissioner Judd, you reiterated those same concepts, 
and both suggested that the amount of land that would be 
susceptible to wilderness designation based upon your 
understanding of the law would be in the ballpark of a million 
acres, which is much less than what I have even proposed here.
    Let me be very clear about my view of the 2.1 million acres 
that we proposed. As you are aware, we had lots of discussions 
about what made sense to do. This is essentially the bill--it 
is the bill that was proposed by the delegation before. There 
have been some serious changes.
    In the meantime, we now have a monument. It is my view that 
a monument precludes wilderness designation. I think that was 
also the idea or the opinion of some of the lawyers involved in 
considering the monument. That would take about 325,000 acres 
out. I think the 300,000 acres that was included at the last 
minute moved by Enid Green was not well considered and needs to 
be considered.
    When I say that I believe we need to look at the law and 
the science, by that I mean we don't necessarily think we will 
end up with 2.1 million acres. It may be significantly less if 
the law described drives that. It may be more if, in fact, our 
opinions differ to what applies, and we make a legal conclusion 
that more would apply.
    Let me also add that I think in that discussion we used the 
term science. You know, we are saying what is the area 
regardless of the law that should be preserved because you have 
a delicate ecosystem? And as we look at the science, we may 
find that there are areas where you have had incursions of man 
that still should be called wilderness. And in those cases, we 
have to look at a compromise.
    This is a complex issue that we will have to deal with in a 
complex manner, and that may mean that we will have to reclaim 
some of those incursions of mankind, and that is the intent of 
the bill. Thank you.
    Mr. Hansen. I don't quite understand, Mr. Harja, the 
problem of the Federal agency's refusal to recognize values for 
conservation purposes and what problem that creates for the 
school exchange. Explain that a little further please.
    Mr. Harja. We are engaged in an appraisal process. 
Appraisals are for market value. There is a belief in this 
country that there is a market now for the purchase of lands 
for conservation purposes. There are groups we all know, the 
Trust for Public Lands, Nature Conservancy, and others, who buy 
land. Sometimes they go on to the Federal Government, sometimes 
they don't.
    The point is there is at least the appearance of a market. 
Now, whether each individual transaction constitutes a 
comparable is open to appraisers looking at them. What we see, 
however, is that the Federal Government, led by the Department 
of Justice, is attempting to squash that as a market and say 
you cannot use those comparables at all.
    And, in fact, a gentleman from Alaska at this conference 
yesterday got up and said an RFP, request for proposal, has 
been sent out by the Fish and Wildlife Service in Alaska, and 
it says--and this is hearsay, of course--you have to ask him--
if you attempt to do this kind of appraisal or use those kind 
of comparables, not only will we not hire you, but we will file 
an ethical complaint against you with the Appraisal Institute.
    I don't mind negotiating on each and every comparable about 
what it is and getting down and hard about appraisals, but when 
somebody is attempting to set the market, it is a problem. And 
that is what we sense is happening.
    Mr. Hansen. I would like to thank the panel.
    Mr. Faleomavaega. Mr. Chairman?
    Mr. Hansen. Just one moment please. We would like to ask 
the Commissioners from Garfield and Kane County, would you 
describe the social impacts of the decrease of solid resource 
production jobs leaving your counties?
    Ms. Liston. I would be glad to go first on that because my 
county has the highest unemployment rate in the State of Utah. 
And that is we are a very rural county. Rural counties are 
rural because they depend upon the land for making a living and 
keeping their communities stable and their economies stable. 
When you take away that option, you take away the option for 
any community to survive.
    And over the past few years, as long as I have been a 
commissioner, which is 10 years, and many years before that, 
resource development has decreased considerably each year. Two 
sawmills in our county have been shut down that depended upon 
resource development. Mines have been denied applications. We 
have one of the largest known CO2 fields right next to 
Escalante where I live, and that has been stopped. We had a 
coal-generation plant back in about 5 years ago. That was 
stopped.
    I mean, everything that we have tried to do with the land 
in my county has been stopped as far as natural resource 
development is concerned. So economically we are strapped to 
making a living on tourism. And although we love it and our 
tourism industry is the largest employer in our county, it just 
does not put food on the table in the winter months, and it is 
a low-paying job that has no benefits attached to it. And it is 
just not the kind of thing that generates a healthy economy.
    Mr. Hansen. Well, what was the reason that Kaibab closed?
    Ms. Liston. A number of reasons, one of them being appeals 
from environmental groups. For the 5 years prior to when the 
sawmills closed, every appeal but one--I mean, every timber 
offering sale but one was appealed. And another was that they 
were considering the Mexican spotted owl and habitat for the 
Goshawk, some of those Endangered Species Act issues.
    Mr. Hansen. Commissioner Judd?
    Mr. Judd. Thank you, Congressman. We lost a uranium mining 
operation right on the border of northern Arizona. Most of the 
help came from my county, Kane County, which is just across the 
county. It was about 200 jobs. As Commissioner Liston just 
alluded to, the Goshawk and the spotted owl, never seen, but 
suspected might live there some day, closed the sawmill there 
at Freedonia and where our people were employed of about 700 
jobs.
    And then, of course, the beauty, the one that really was 
the icing on the cake, after the EIS had gone on for about 6 
years proving the fact that it could be mined in the Smokey 
Hollow area, our coal mine, which would have employed about 900 
people, also was denied. And so now, like Commissioner Liston, 
we are at abeyance and hopefully that we will have an 
opportunity to make a living with the tourist trade.
    I might also add that the tourist trade provides something 
for my county that has been a surprise. We began keeping 
records of our Court cases, and we found that during the 
tourist months, our Court cases became a spike. And now we are 
asked by the State of Utah to provide another Courtroom that 
will employ at least two more Judges just to take care of that 
caseload. So we have really been impacted and don't look for 
the tourism to be the solution to our problems.
    Mr. Hansen. Did I miss something? Did you say that there 
were two endangered species in your area that was never 
verified----
    Mr. Judd. It was a suspicion.
    Mr. Hansen. [continuing] but now has got a threatened or 
endangered habitat?
    Mr. Judd. This Kaibab Forest was suspicioned to be the 
habitat of an owl never seen.
    Mr. Hansen. Did the Fish and Wildlife declare it a 
threatened or endangered area?
    Mr. Judd. That is right. They said that the area that was 
studied was an area that might be inhabited some day because 
they deemed the area to be a habitat that might support the 
spotted owl. They had never seen one.
    Mr. Hansen. You are not pulling our leg are you, 
Commissioner?
    Mr. Judd. I am not. I am not. And that is the last thing I 
would want to do, Congressman.
    Ms. Liston. In fact, Mr. Chairman, I think they called it 
future protection--what did they call it? They had a name for 
it--for future--I can't think of it--potential habitat or 
something of those birds.
    Mr. Hansen. I guess I will have to go back and read that 
law. I thought I understood it. The gentleman from American 
Samoa, you had additional questions?
    Mr. Faleomavaega. Just one additional question, Mr. 
Chairman. I wanted to ask Mr. Harja, is there a standard method 
currently being instituted to establish land appraisals? The 
meaning of my question--does the State of Utah have a different 
method of appraising land valuations than that from BLM or 
other Federal agencies?
    Mr. Harja. No, sir. We want to use the same method as used 
nationwide. We want to use the same standards. If there is a 
market, we want to be able to use the market as comparables in 
the appraisals.
    Mr. Faleomavaega. My question is is there a difference? I 
mean, are you applying the same method as the Federal agency of 
land valuations?
    Mr. Harja. We are trying to make sure that appraisers--all 
of these are involving independent appraisers that are hired to 
do this work--we are trying to make sure that the appraisers 
can use whatever they believe to be a market. We do not believe 
that the Federal Government is allowing that to happen.
    Mr. Faleomavaega. Should the Congress spell out how these 
appraisal methods ought to be done?
    Mr. Harja. Yes.
    Mr. Faleomavaega. All right. Maybe this is something that 
we can address here. I notice in your capacity as the Vice 
Chairman of the Utah School, has there been any valuation done 
of the 3.7 million acres of school trust lands?
    Mr. Harja. There have not been appraisals done in every 
single one of them, no. We only do appraisals when there is a 
need. We have gone through and inventoried all of our lands and 
have gotten them computerized and have set a book value for 
purposes, and sometimes that is around just a book value of a 
dollar an acre, which everybody knows what that is.
    Mr. Faleomavaega. So let us say approximately for the three 
commissioners here representing the three counties, can you 
wing it--have any sense of what it might be for the three 
counties that are represented here?
    Mr. Harja. Emery County has got a lot of production on 
trust lands. They have got some methane gas that is probably 
worth a fair amount to them. Garfield County is all--not much 
going on. And I don't know about Kane County right offhand. 
There is not a lot going on down there right now because of the 
monument and wilderness and other things.
    Mr. Faleomavaega. So even currently there is a question on 
the standard on how we go about appraising lands, I mean, 
between the Federal and the State. And do you feel that we 
should be a little more specific on how we should go about 
making these valuations?
    Mr. Harja. It seems to me if the Federal agencies, the 
executive branch is interested in really looking at what 
represents a market value and swapping value for value, which 
is what FLPMA requires, they need to be a little more--they 
need to be directed.
    It is our view--this is just us talking--and others in the 
appraisal world agree that they are attempting and are, in 
fact, through their intimidation tactics getting away with 
setting what a market is, rather than leaving it to the free 
marketplace to determine what a market is. That is what we have 
a concern about. If there is something that Congress can do, an 
oversight hearing or set legislation, I would appreciate it.
    Mr. Faleomavaega. Well, I certainly would welcome your 
opinion on this and certainly would like to work closely with 
Congressman Cannon to see how that might be resolved. And I 
appreciate your response. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Cannon, do you have any further questions? 
Let me just say my able legal staff has corrected me on what 
Commissioner Judd said. We have endangered habitat for areas 
where we have no fish, but we have a fossil fish, which I think 
is maybe an extreme application of the law, but who am I to 
say? I am not entirely in accord with the Endangered Species 
Act. Mr. Cannon.
    Mr. Cannon. Let me just followup, Mr. Chairman, on that and 
see if I--I have heard the story about the Kaibab. And it seems 
to me that you had a planning process down there, the Forest 
Service doing its plan--a 5-year plan I believe. And it was in 
the context of that that there was a lawsuit by environmental 
groups that ended in requiring them either by agreement or 
otherwise to look at habitat for the Goshawk and the Mexican 
spotted owl. Is that not what happened there?
    Mr. Judd. That is correct.
    Mr. Cannon. So, in fact, you had a plan. That plan was 
objected to by a lawsuit from environmental groups?
    Mr. Judd. That is my understanding, Congressman.
    Mr. Cannon. That is ultimately what ended up shutting off 
the logging because they didn't have a plan. They couldn't 
sell?
    Mr. Judd. That was the triggering mechanism. There were 
many things that took place after that situation arose, and it 
was merely the triggering mechanism. It was the domino that 
pushed that rest of it over.
    Mr. Cannon. Do you recall which environmental groups 
brought that lawsuit?
    Mr. Judd. No, I do not.
    Mr. Cannon. Thank you.
    Mr. Hansen. We appreciate the panel and your excellent 
testimony you have given us. And we will excuse you at this 
point. And we will ask our last panel if they will please come 
forward; Mr. William H. Meadows, President of The Wilderness 
Society; Debbie Sease, Legislative Director of the Sierra Club; 
and Heidi J. McIntosh, Legal Director of the Southern Utah 
Wilderness Alliance. Thank you very much. We appreciate your 
presence with us and appreciate your patience more than 
anything. Let me point out--I guess you all know the rules 
here. Mr. Meadows, we will start with you. Is 5 minutes 
sufficient? If you have to go over, by all means, go ahead.

  STATEMENT OF WILLIAM H. MEADOWS, PRESIDENT, THE WILDERNESS 
                            SOCIETY

    Mr. Meadows. Thank you, Mr. Chairman, and members of the 
subcommittee. I am Bill Meadows, President of The Wilderness 
Society, and I am pleased to come before you today to discuss a 
matter of great significance to our Nation's natural resources 
and public lands--the protection of the magnificent red rock 
canyons and other public lands in Utah. And I am not going 
ballistic.
    With the passage of the Wilderness Act in 1964, the United 
States set on a course, uncharted in the history of nations, to 
preserve a few of the country's last remaining wildlands as 
cultural and scientific enclaves and to protect their natural 
ecological processes and values from encroaching an 
indiscriminate development.
    Thanks to the wisdom, foresight, and perseverance of many 
dedicated individuals across this Nation, generations will 
enjoy an enduring legacy of wilderness resources to provide 
wildlife habitat, healthy soils and watersheds, primitive 
recreation, solitude, cultural and historical resources, and 
other scientific and ecological values.
    The Wilderness Act established the National Wilderness 
Preservation System now some 100 million acres in size and 
containing wild places from all regions of the country. Some of 
the wildest, most magnificent and most remote wildlands in the 
lower 48 are in Utah, America's red rock wilderness.
    ``This is a region of the wildest desolation,'' wrote Major 
John Wesley Powell. More than four-fifths of the State has been 
fenced, farmed, dug up, raised into cities, criss-crossed by 
roads, mined, and appropriated by the military, but some 6 
million acres retain that wild splendor that Powell saw. The 
wild public lands found in Utah harbor some of the largest and 
finest desert, roadless areas to be found anywhere in the 
world.
    The Wilderness Society has been an active member of a broad 
coalition of 150 conservation, wildlife, scientific, and 
recreational organizations working to provide strong wilderness 
protection for BLM lands in Utah. We were a leading advocate 
for the passage of the Wilderness Act in 1964, and we have 
fought to protect our Nation's wilderness resources and 
wildlands since its founding in 1935.
    We have offices in most regions of the country and a staff 
of trained scientists, economists, and advocates. We work with 
a wide variety of State, regional, and national organizations 
to further the protection of Federal lands.
    Our 300,000 members and supporters believe in the sound 
management and protection of our Nation's public lands, 
national parks, national forests, wildlife refuges, and 
designated wilderness areas. They look to us to speak for these 
lands and the many values they provide us.
    Let me turn to H.R. 1500 and H.R. 1952. These could not be 
two more different approaches to wilderness. One protects 
wilderness, one does not. The Wilderness Society is proud to be 
part of a coalition of 150 national, regional, and local 
organizations that support the citizens wilderness proposal 
contained in H.R. 1500 and sponsored by Mr. Hinchey called 
America's Red Rock Wilderness Act.
    This bill, and its newly introduced Senate companion 
legislation, Senate Bill 773, would provide protection for most 
of the remaining wilderness resources on public lands managed 
by the BLM in Utah. In addition, H.R. 1500 would maintain the 
integrity of the wilderness system by continuing the important 
wilderness protections afforded to designated areas by the 
Wilderness Act of 1964.
    The wilderness designations of H.R. 1500 are also widely 
supported by the people of Utah. Nearly 70 percent of those 
responding to Governor Leavitt's request for public comment 
indicated their support for the acreage of wilderness 
designations contained in H.R. 1500. In addition, when asked in 
a recent independent poll does wilderness designation make an 
area more or less appealing to you as a place to visit, 64 
percent replied that wilderness designation makes a place more 
appealing.
    We oppose H.R. 1952, Representative Cannon's Utah bill, 
because we believe that it actually makes no definite 
wilderness designation. It fails to provide protection for 
millions of acres of wilderness quality land. It ensures that 
undesignated areas will never again be considered for 
wilderness protection. And if by chance wilderness designations 
were ever to be actually implemented, these areas would be 
riddled by activities that are antithetical to wilderness.
    Let me close by restating our interest in working with 
Representative Cannon and members of this Committee in 
addressing the issues of State trust lands. The Wilderness Act 
of 1964 provides for and The Wilderness Society supports the 
opportunity for State owned or privately owned land surrounded 
by congressionally designated wilderness to be exchanged for 
federally owned lands in the same State of approximately equal 
value under authorities available to the Secretary. It is in 
the bill. We are eager to work with you in resolving that 
particular disagreement. Again, I want to thank the committee 
for inviting me and The Wilderness Society to be present today.
    [Prepared statement of Mr. Meadows may be found at end of 
hearing.]
    Chairman Hansen. Thank you, Mr. Meadows. Debbie Sease, we 
will turn the time to you.

  STATEMENT OF DEBBIE SEASE, LEGISLATIVE DIRECTOR, SIERRA CLUB

    Ms. Sease. Thank you, Mr. Chairman. It is a pleasure to 
testify before you again. I would like to just briefly 
summarize my written statement. There are three issues I would 
like to touch on with regard to H.R. 1500. The Sierra Club 
vigorously supports this bill. It is a citizens proposal. It is 
a bill that is based on a citizens proposal.
    The reason citizens had to go out and put their own 
proposal together on this stemmed in large part from the 
failure of the Bureau of Land Management in the late 70's and 
early 80's to do an adequate job on the inventory. I actually 
personally toured much of the areas that are covered by this 
bill with then State Director Gary Wicks.
    And we stood in many, many areas where as far as the eye 
could see it was wild country. It was beautiful country in many 
cases. It was natural. It was largely unaffected by man, and 
Mr. Wicks would say, ``We dropped this entire area because you 
can't have outstanding solitude here. There is not enough 
topographical relief.'' So the inventory itself was shrunk far 
less than should have been considered.
    The second point I wanted to make on H.R. 1500 is that it 
protects large blocks of largely intact ecosystem. It has a 
range of elevations of ecological communities and, where 
possible, entire watersheds. And it is one of the things I 
think is the strength of H.R. 1500 as a statewide wilderness 
bill for BLM.
    Finally, I wanted to turn to the comments that have been 
raised this morning and previously about whether or not the 
areas in H.R. 1500 qualify as wilderness. The issue of whether 
or not areas are pure enough to be included in a wilderness 
system is not a new issue. I think for as long as the 
Wilderness Act has been around, this has been a subject of 
debate.
    The Forest Service during the Rare One and Rare Two process 
spent a lot of time saying that areas should not be included in 
the wilderness system because they weren't pure enough because 
of the existence of an old two-track trail or stock watering 
ponds or abandoned mines. In Utah national forest wilderness, 
there are numerous examples of the same kinds of impacts that 
we see in H.R. 1500. I have itemized some of those in my 
statement.
    I think if you look back to the crafters of the Wilderness 
Act itself, some of the things that they said about this issue 
are relevant here. Senator Mark Hatfield in 1973 said, ``I am 
not a lawyer, but I do not think this language means there 
cannot ever have been human activities within the area, as the 
Forest Service seems to think or believe.''
    Senator James Buckley, another Republican from New York, 
said, ``The untrammeled-by-man criteria, in my view, reflects 
an overly literal and narrow interpretation of the term 
wilderness. It ignores the elucidative phrases which also 
appear in Section 2[c] of the Wilderness Act, defining 
candidate areas as those which are without permanent 
improvements and with the imprint of man's work substantially 
unnoticeable.''
    During the debate on the Wilderness Act, Clinton P. 
Anderson says that the Wilderness Act ``contains two 
definitions of wilderness. The first sentence is a definition 
of the pure wilderness area where the earth and its community 
are untrammeled by man. It states the ideal. The second 
sentence defines the meaning or nature of an area of wilderness 
as used in the proposed Act. The substantial area retaining its 
primeval character without permanent improvements which is to 
be protected and managed so man's works are substantially 
unnoticeable.''
    And, finally, former Chairman of the Interior Committee, 
Morris Udall, said, ``It would be nice to have our wilderness 
preservation system absolutely pure and completely free of any 
sign of the hand of man. But the fact is we are getting a late 
start in this business of preserving America's wilderness. We 
cannot have perfection.''
    With regard to H.R. 1952, we have three general areas of 
concern. One is the scope--the fact that far too little acreage 
and too small an area is protected; second, a series of 
management con-

cerns, which I have detailed in my written statement; and, 
finally, the provision on State school exchanges.
    With regard to the State school exchanges, there have been 
numerous models in previous BLM wilderness bills to attempt to 
expedite, to put some pressure on the Federal Government to 
stay at the table. And those examples, in my view, have managed 
to do so without unbalancing the playing field between the 
State and Federal interests.
    And I would urge the committee in looking to solutions for 
the State school trust lands to look to some previous models, 
whether it is the Arizona Wilderness bill, the California 
Desert Protection Act. There were special provisions in the El 
Malpais Monument and Wilderness Area in New Mexico, and I think 
some of those are more fruitful models than what we see in H.R. 
1952. That concludes my statement. I am happy to answer any 
questions.
    [Prepared statement of Ms. Sease may be found at end of 
hearing.]
    Mr. Hansen. Thank you very much. I appreciate your 
testimony and appreciate you being with us. Heidi McIntosh, you 
are recognized.

 STATEMENT OF HEIDI J. McINTOSH, LEGAL DIRECTOR, SOUTHERN UTAH 
                      WILDERNESS ALLIANCE

    Ms. McIntosh. Thank you. I appreciate the opportunity today 
to comment on H.R. 1952, as well as on H.R. 1500, America's Red 
Rock Wilderness Act.
    Mr. Hansen. Pull the mike just a tad closer please. Thank 
you.
    Ms. McIntosh. Is that better? I speak on behalf of the 
25,000 SUWA members from throughout the country who cherish the 
breathtaking wildlands of southern Utah. H.R. 1952 suffers from 
numerous problems, but I will focus on two defects in the bill 
today--its limited size and its fatally flawed process for the 
exchange of school trust lands.
    Simply put, H.R. 1952 is deju vu all over again. We have 
seen this bill before, minimal in acreage, leaving out places 
that vividly embody the core characteristics of wilderness. 
These places include the stunning coral pink sand dunes of 
Moquith Mountain, Fish, Owl and Road Canyons in the Cedar Mesa 
area, lower Muddy Creek, much of Labyrinth Canyon, the 
serpentine canyons of the Paria, and other areas too numerous 
to mention here.
    The magnificence of Utah wilderness is no longer a secret 
shared by Utahans and a few adventurers from around the globe. 
Americans from every walk of life cherish the beauty of these 
unique lands and are fully aware of the threats of this 
wondrous region, whether from inadequate wilderness legislation 
or from the blade of a bulldozer.
    Last year, in a stunning show of grassroots outrage, 
thousands of Americans from every corner of the country urged 
their Senators and Representatives to reject the Utah 
Delegation's paltry offer to extend protection to only 2.1 
million acres. 5.7 million acres, not 1.8 or 2.1, was the 
message here heard in the Capitol, and the bill was defeated.
    Let me turn to the school trust problem, because we 
recognize that it is a significant problem. We would like to 
work with every-

one involved to resolve it. We support in principle the idea 
that the school trust administration should be compensated 
fairly for lands where economically viable development is 
hampered by wilderness designation.
    But first, some background. Without any restrictions 
attributable to wilderness designations, Utah has not been able 
to generate more than about 1 percent of the school budget from 
these lands. These lands are not a significant source of school 
funds under the best of circumstances.
    Further, funding for public schools has traditionally come 
from taxes distributed by the State legislature. In Utah, where 
the government always runs in the black--there is money in the 
bank--State legislators reach out to Utah's school children 
with empty hands. Virtually no other State provides as little 
funding to educate its children as Utah.
    This is not to say that trust lands should not be used to 
help finance State schools. They should, and we don't contest 
that. But blaming wilderness protection and wilderness 
supporters for lost education funding is a red herring that 
deflects attention from the serious problems that we have 
before us today--how to protect Utah wilderness.
    Having said this, I reiterate that we support fair 
compensation to the trust. However, this bill is not 
acceptable. First, this bill postpones wilderness protection 
until the exchange process is completed. It would hold 
wilderness hostage to a State government and give control over 
Federal lands most in need of protection to those least 
interested in shielding it from development, to those with a 
strong motive to hold out, delaying the process with exorbitant 
claims, and all the while the lands with wilderness character 
remain unprotected and vulnerable to exploitation. Never before 
has wilderness protection been subject to this kind of State 
control.
    The bill is also unacceptable because it strips the 
Secretary of his authority to resist unreasonable State demands 
for Federal lands, demands that may well wreak havoc on public 
lands management and result in exchanges that are not based on 
equivalent value.
    Further, after the exchange is accomplished, the BLM would 
hold the former State section subject to existing leases and 
permits. Thus, exchange places all the benefits in the hands of 
the State and leaves the BLM holding the bag. It has to buy out 
the State lands, pay for the exchange process itself, and may 
yet again have to buy out the holders of the leases and permits 
whose activity would threaten even the mere acreage that would 
be protected under this bill. This bill would drain the Federal 
Treasury of crucial tax dollars.
    Let me say too in closing that we understand, as I said, 
that the State school trust sections are a problem. They are a 
problem for us. They are a problem for a trust land 
administration. They are a problem for the Federal Government. 
And we have gone to the Utah Delegation and to the Governor of 
Utah to express our strong interest in trading out these lands 
within the monument.
    It would be a terrific idea to use the monument as a 
laboratory to see how we may be able to effectuate an exchange 
which is mutually beneficial for all the parties concerned. And 
I hope that we can work together while these bills are pending. 
There is a window of opportunity to see what we can accomplish 
together, all parties sitting at the table as equal bargaining 
parties. And I think that that is how it ought to progress 
instead of using the hammer provisions of Mr. Cannon's bill. 
Thank you for the opportunity to testify today.
    [Prepared statement of Ms. McIntosh may be found at end of 
hearing.]
    Mr. Hansen. Thank you. We appreciate your comments. I don't 
mean to take issue with anybody and be argumentative. I used to 
be Speaker of the Utah House before I came here, and that made 
me Chairman of the Executive Appropriations Committee. And I 
just hope you realize that the biggest percent of money that 
goes into the State goes to schools that comes out of our 
school budget. We have the highest of any State in the Union.
    We put more of our percent of money into schools than any 
other State in the Union. I don't know how much more you can 
push these folks. Yet, as Louise pointed out or Mr. Harja, per 
student it is still the smallest. Now, the obvious thing there 
is that there is more children than other people, and there is 
no question about that. I won't argue that point. We have a lot 
of children.
    Also on your testimony where you point out that last year's 
delegation bill went down in ringing defeat. I don't know where 
I was. That was my bill that passed everyplace it went. It 
passed the subcommittee. It passed Full Committee. It passed 
the Senate. And if you would like to see the whip check, we had 
231 votes over here. It takes 218 to pass. There are 57 in the 
Senate.
    I would agree, and more than happy to accept that, that the 
President would veto it. And if that is considered ringing 
defeat, fine. But as far as the delegation's bill, it could 
easily have passed the House and the Senate. I don't know if it 
can now. That is something we may find out, but I guess there 
is a part of definition on that so I won't argue that point 
with anybody.
    Ms. McIntosh. My reference was to the fact that it did not 
come out of the Senate and didn't become law but----
    Mr. Hansen. I am sorry. I didn't hear.
    Ms. McIntosh. My reference was to the fact that it did not 
emerge from the Senate as law, but I don't want to argue with 
you on that point either.
    Mr. Hansen. It passed the Senate committee and passed over 
here. I sponsored the bill. I can tell you that is what 
happened. And we did an exhaustive whip check on it--very 
exhausting whip check on it. So what is the benefit of getting 
your head bashed in to send it down to Pennsylvania Avenue and 
have it come back, and we couldn't override a veto. I would 
agree with that if that constitutes a ringing defeat, but the 
bill wasn't defeated. There was enough up here to pass it in 
both places, and I don't mean to get into a semantic game, but 
that is what really happened.
    Mr. Meadows, you made a point, as did Heidi McIntosh, about 
the polls, that the majority of people in Utah, in your 
opinion, and the polls you quoted wanted the 5.7 million acres. 
You know what I would be willing to do? I would be willing to 
say let us put it on the ballot, have no binding effect in 
Congress I am afraid to admit, and if 5.7 came out, I would 
sponsor the bill.
    And I would make that pledge and sign it. If zero came out, 
I would sponsor the bill. If 1.4 came out, I would sponsor the 
bill. I mean, I have been in the State for a long time. I have 
38 years as an elected official from that State. I was Speaker 
of the Utah House, the highest position in the legislature. I 
think I have a good knowledge of that, and I also know every 
pollster in that State. And I also know how they ask the 
questions, and I have done my share of actuarial work in 
polling. And I would be willing to take that pledge. I will 
sponsor it----
    Mr. Cannon. If the Chairman would yield, I would take that 
pledge too.
    Mr. Hansen. But I want you to take the same pledge, that 
the President of The Wilderness Society would say whatever 
comes out, we will stand behind it. Do you take that pledge?
    Mr. Meadows. Mr. Chairman, these issues are very complex, 
and I think when you survey the citizens of southern Utah, you 
survey the citizens of Utah as a State, and you survey the 
citizens of the United States as well, who actually have a 
significant interest. These are national lands. They are not 
simply Utah lands.
    I think we need to have all of the information that we 
possibly can have about people's attitudes, and I think that is 
what we are doing here today is trying to exchange opinions, 
trying to understand what different Representatives believe is 
the correct way to go. We represent people who have strong 
wilderness values.
    We see a lot of support for those values within the State 
of Utah, and the polling that we have seen indicates that 
support. When you get down to specific acreage and specific 
places, I am not certain the polling is that detailed. We would 
have to be careful then orchestrating that kind of instrument. 
We would be willing to explore that with you though.
    Mr. Hansen. I don't argue what you are saying. I just read 
your testimony and Heidi McIntosh's testimony where you both 
made a rather big point, that the people in Utah wanted that. I 
would concur with what you say. Other people have an interest 
in it. And you could add to your discussion to me--you could 
say will you make it a nationwide poll. Of course we couldn't.
    I would do that if I could vote on all their stuff in every 
one of their areas. With that in mind, I cannot understand why 
you folks weren't in testifying on the Eastern Wilderness bill. 
No one can tell me that Maine, Vermont, Georgia doesn't have 
some gorgeous area that should be protected in wilderness.
    Mr. Meadows. My understanding is The Wilderness Society's 
Peter Kirby was here testifying on behalf of the Eastern 
Wilderness bill.
    Mr. Hansen. You are right and I stand corrected. And the 
testimony was excellent testimony, and he should be commended 
for it.
    Mr. Meadows. He is very knowledgeable, and we have a lot of 
respect for Peter's----
    Mr. Hansen. I would hope that we don't say that tongue-in-
cheek on an Eastern Wilderness bill. There are plenty of areas, 
and what really concerns me is the people I see come out to 
Utah are the very wealthy. These are the people with money that 
come out to see it.
    Yet, I worry about the innercity kid that doesn't get to 
enjoy that because being an old Scout master myself and taking 
a lot of kids into the Uinta Mountains a few times, which is 
one of the most pristine, gorgeous areas which is wilderness 
with my name on it, I would just feel that some kids on the 
East Coast and the East are missing out on a very good 
experience. And having spent years in the East, not only in 
this position but other positions, I know there are some 
gorgeous, gorgeous areas. And I do appreciate that, and I 
appreciate your comment.
    Mr. Meadows. I am sorry that Mr. Duncan is no longer here. 
I am from Tennessee, and I was very actively involved in 
Eastern Wilderness bills 20 years ago.
    Mr. Hansen. Well, I commend you for that because I would 
hope to see the support of all three of your groups on 
something that I consider a good piece of legislation. Back to 
the poll, Heidi, what about you folks? Will you go along with 
that?
    Ms. McIntosh. Well, there is support for 5.7 million acres 
of wilderness in Utah, as you know, and that poll is a 1995 
poll that was conducted by Valley Research. And the plurality 
of the people polled were in favor of 5.7 million acres, and 
that is an important consideration, but it isn't the only 
consideration. It is only part of the equation.
    The lands that we are talking about today are public lands 
that are owned by all Americans, and so while I think that Utah 
opinion is important, Utahns can't determine the fate of land 
that isn't owned by Utah. And so I would not be able to 
accept----
    Mr. Hansen. I am not arguing that. I am just going to your 
statement. I am going to your statement.
    Ms. McIntosh. I was responding to your question about----
    Mr. Hansen. And your statement said that the majority of 
people in Utah wanted this, and I am just merely laying that on 
the table. If that is the question, let us do it that way. It 
would make it easy for me, for Mr. Cannon, for Senator Hatch, 
for Governor Leavitt, the whole nine yards. This would be a lot 
easier for us to just stand up and say this is what the people 
want, and we have all agreed that that is what we will do. But 
I cannot say if we can do that.
    Let me just go a minute longer seeing I haven't used all my 
time before and say this. I would hope that--I am perfectly 
aware that the 5,000 acres has caveats to it--no question about 
that. You have probably seen down in Grand County where our 
Indian friends are very upset about 3 areas of your 5.7 
proposal in the canyons of Fish, Owl, and Road, that they feel 
that they are really being subjected there because that is how 
they get their firewood.
    And in the old days, they used to drag in there and carry 
it out with saws and axes. Now, they go in with pickup trucks 
and chain saws--roads all through it--four or five areas like 
that that I would hope that Mr. Hinchey, Mr. Cannon, and many 
of you folks and the previous panel talked about that there is 
probably a compromise here if everyone would get off their 
rigidity and say where is there some give and take?
    And I would hope that, if I may say to these three 
organizations that are well represented here today, that you 
would give some thought to some of those areas on a retail 
basis. We are kind of talking wholesale today, and on a retail 
basis, it would be my wish that you could work something out 
working with these folks who were here before and others 
because I really think this issue has polarized and become more 
contentious than it ever should be. But I want to thank all 
three of you for your attendance here today, and I will turn to 
the gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, the battle lines have been 
drawn, the die is cast, we are crossing the River Kan, and 
somewhere along the line I sincerely hope that we do find a 
resolution to the issues brought about. I was just curious too, 
Mr. Chairman, in asking Mr. Meadows and Ms. McIntosh, these 
polls were taken in 1995. Do they still stand substantively, or 
do you suppose that 2 years later there may have been a shift 
or a change in sentiments of the people of Utah?
    Ms. McIntosh. I suspect that there may have been a shift. 
It is the most recent poll that was done on the issue, but 
since 1984, our membership in Utah and nationwide has doubled, 
and that was primarily because of the Utah wilderness issue and 
the threat that people felt was imminent and threatening these 
lands. And so, if anything, I would guess that there is a 
little more support in Utah and elsewhere for wilderness than 
what is reflected in this poll data.
    Mr. Faleomavaega. I know the Chairman has always kindly 
reminded me that since taking up this responsibility as the 
Ranking Member that 67 percent of the State of Utah is owned by 
the Federal Government, as opposed to our friends from the 
eastern States that have literally no presence of the Federal 
Government.
    And I guess that is part of the frustrations that some of 
our congressional delegations coming from western States like 
Nevada, Utah, and Colorado--the presence of the Federal 
Government can be a blessing. It can also be especially 
frustrating for those who do represent the Utahans or the State 
of Utah in that respect.
    Because of that, and I suppose you might say that it is 
just a constant intrusion of the Federal Government by way of 
regulations, laws supposedly to help us dealing with 
wilderness, dealing with the forestry, dealing with BLM. We 
don't have that as much--the presence in the eastern States. 
And I couldn't agree with you more. This is America. We all 
have got to look at what is on the grand scale of things and 
should be helpful.
    But what do you suggest, Ms. McIntosh, to equalize this 
imbalance--that I consider it an imbalance? Should every State 
be considered maybe 50 percent owned by the Federal Government? 
Maybe some of the State lands owned by New York or Vermont 
ought to be put in some sense of balance so that there is no 
inequality here.
    I suppose if I were a Utahan and 67 percent of the State of 
Utah owned by the Federal Government, would you share any sense 
of sentiment and frustration that maybe the residents of Utah 
do have and the fact that there is constantly an encroachment 
or an infringement of Federal laws telling them what to do?
    Ms. McIntosh. I think you will find a split of opinion on 
that question. People who live in the West--I have lived in the 
West for almost all my life, and I thank God every day that 
there are Federal public lands in the West where you can go out 
and just experience the sheer beauty and the solitude of those 
lands. And sure those lands can and should be developed in some 
places, but they need to be protected too.
    And in trying to tie back to the reason that we are here 
today, I think that we need to deal with the reality in that 
most western States--the Federal Government owns a large chunk 
of land. But let us try to make the most of it, and let us work 
together to try to resolve this school trust situation. The 
least we can do is sit around the table and try to negotiate as 
equal bargaining partners some sort of solution that 
consolidates the land to the benefit of all the parties.
    Mr. Faleomavaega. This issue is not necessarily dealing 
with wilderness, but I make an analogy in the fact that for the 
past 30 years perhaps, the nuclear industry have been great 
advocates of building nuclear reactors to provide electricity 
for our country. And in doing so, we have got a whole bunch of 
nuclear waste material sitting out there among the eastern 
States, and they want to shift it to States like Nevada or 
maybe even in Utah if there are some presence. Already there is 
a lot of presence of that.
    And if you were a resident of Nevada, would you appreciate 
getting nuclear waste products from Tennessee and other States 
for the simple fact that because we own 80 percent of Nevada 
federally and then maybe even in Utah we should send some of 
our nuclear wastes byproducts to Utah because we own 67 percent 
of that State.
    What would be your recommendation on how we might resolve 
this multibillion dollar problem that we are going to be faced 
with in the very--some very crucial weeks and months ahead, 
that the 1.2 million residents of Nevada are going to be the 
recipients of nuclear waste products that will be coming from 
the eastern States?
    Ms. McIntosh. Can I study that and get back to you later? I 
am sorry. I know it is a complicated issue, and I don't have an 
answer for you as I sit here today.
    Mr. Faleomavaega. Mr. Meadows?
    Mr. Meadows. Well, I will offer an opinion. You know, I 
haven't studied this issue either. But I am not certain that 
the issue is so much whether it should be stored on Federal, 
private, or State lands. It seems to me that they are issues of 
security, they are issues of stability, they are issues of 
permanence.
    I am not certain that Nevada is the right place to store 
nuclear waste. You know, I think we all wish that we did not 
have to deal with this problem. We do need to find a way to 
stabilize and secure this waste. But I don't think it has to be 
based on who has the most Federal lands, and, therefore, you 
dump it in my backyard.
    Ms. Sease. Well, again, I didn't come prepared to talk 
about nuclear waste disposal, but the Sierra Club does have a 
position against the Yucca Mountain legislation which would 
place nuclear waste in the Nevada. And if you want details 
about alternatives, I can certainly have somebody from my 
energy team provide you with that.
    Mr. Faleomavaega. No. I understand that, Ms. Sease. I was 
just making an analogy on what we are talking about. This is 
America, and we all ought to share--have a great sense of 
responsibility to share equally in terms of some of the things 
that come to bear and the resources that Utah has. Great. Let 
us all share in the wealth, whether it be out in the wilderness 
or the trees or whatever.
    But when it comes to the junk stuff, all the other States 
want to get rid of it, and let us send it to Utah as well since 
it is easier for the Federal Government to make designations in 
Nevada and Utah to store some of this waste. But I was only 
making an analogy. I wasn't trying to solicit your expert 
opinion on it.
    But, you know, I have been dealing with nuclear issues now 
for the past several years. Thanks to President Chirac, you 
know, the great French government that many Americans did not 
realize they detonated almost 200 atomic bombs in these islands 
out there in Pacific, let alone the 66 detonations that we have 
done in the Marshall Islands; one specifically, a hydrogen bomb 
that was 1,000 more powerful than the bombs we dropped in 
Hiroshima and Nagasaki.
    And surprisingly many people in America don't realize that 
this is what we have done. And yet we put a stop to it because 
we found that there was strontium 90 in milk products in 
Wisconsin and Minnesota. So I just want to share those concerns 
with you, but I do appreciate your testimonies.
    I sincerely hope that--I certainly do take it in a 
constructive way and hopefully that we might find a resolution 
to this problem that has been gnawing at us now not only for 
the residents of Utah, but certainly for our Nation. Thank you, 
Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. I would like to talk 
for a moment about the polls because I think they are relevant. 
The world should know that we love Valley Research, Inc., 
because they came out a couple weeks before my election and had 
me 20 points down, and that certainly motivated my supporters 
to get out and vote. Our internal polls were much different.
    And let me just say that polling is a tricky thing. This 
is, as you all have said, a complicated issue and citing polls 
of people who don't understand the complications who like the 
term wilderness. I mean, we believe in conquering the 
wilderness, and then many of us believe in subduing it and 
having dominion over it. Polls don't do that when you use the 
naked term wilderness, and so I don't believe this an issue 
that ought to be driven by public opinion.
    Let me also say that I deeply appreciate the way, Mr. 
Meadows, you have approached the discussion. We have differing 
views it is clear, but you have been measured and thoughtful. 
And let me say the same, Ms. Sease, that we probably have more 
clear distinctions with the Sierra Club in Utah.
    Your proposals to drain Lake Powell or your organization's 
proposals to drain Lake Powell, and the attacks on sport 
utility vehicles I think are ill-founded and don't do much good 
for the environmental movement or the protectionist movement.
    But, generally speaking, I think that, and especially in 
your testimony today, this has been very pleasing and that 
there has been a foundation I think from moving forward and 
working together. We look forward to do that.
    I tend to look at language to try and figure out where 
people are coming from. And I think it has been very clear, Ms. 
McIntosh, that SUWA has been on the extreme polar edge of this 
debate. In looking through your testimony--in Mr. Meadows's 
testimony, he talked about not going ballistic, and that was 
about as rhetorical as that got, and that was saying we are not 
on the extreme I thought.
    But as I look through your testimony, you talk about on the 
one hand you have got extreme words like cherishing the 
breathtaking wildlands. You talk about lyrical language in the 
Wilderness Act. On the other hand, my bill is deju vu all over 
again, and you refer to it as paltry and stingy and meager. And 
in another place you talk about vociferously opposing and 
exorbitant and astronomical, words that tend to be extreme.
    And, you know, frankly, I don't understand where SUWA is 
coming from from a point of view of what they believe. I think 
that I could sit down and talk with Mr. Meadows, and we 
probably would come at least to a context for discussion. Can 
you give me a little bit of background about yourself 
personally? You know, you mentioned you were raised in the 
West. What part of the West, what your beliefs are, what your 
religion is possibly? An idea of where you derive your views 
from that you are representing here?
    Ms. McIntosh. That is a difficult question to summarize in 
the time we have here. I am from Tucson, Arizona. I have always 
enjoyed being in the wilderness. I have always enjoyed 
observing wildlife, enjoying the quiet, the solitude. It has 
been a major influence in my life. It is something that I think 
is inherent in my character. I don't know if I can really 
explain any better than that.
    With respect to my testimony, I think it is beneficial for 
everyone if we have a frank and honest discussion, and that is 
how I phrased my written statements and my verbal statements 
here today. It benefits you to know exactly how we feel about 
this.
    Now, while I was very descriptive in my testimony, I think 
that we ought to sit down, and we ought to talk about this 
issue that you have raised in your bill, which I think is an 
important issue, and that is the exchange of trust lands. Let 
us do it. Let us see what the possibilities are.
    Mr. Cannon. Well, certainly SUWA has done a great deal of 
inventorying of the State of Utah, I think more than perhaps 
anyone else. You have actually pushed for more than the 5.7 
million acres not publicly yet, I know. In that process, do you 
think that you can identify 630,000 acres that we could talk 
about exchanging that would be available for development and 
commercialization?
    Ms. McIntosh. Any acres that we have identified in our 
proposal?
    Mr. Cannon. The question is could you identify--because in 
your organization you have a huge body of expertise. Could you 
identify a large number of acres that you would be willing to 
say these are appropriate, not in the wilderness areas 
obviously, but in other areas--these are appropriate for 
development, for commercialization, for oil and gas and mining 
and those kind of things?
    Ms. McIntosh. I think that we should try, but I think that 
your question assumes that all of the school trust lands are 
appropriate for the type of development you describe, and that 
is not an accurate statement of the character of the school 
trust lands.
    As Mr. Harja mentioned, these weren't selected because they 
are particularly valuable. They are scattered through the State 
like buckshot. They are random sections, 4 out of every 36. So 
not all of them have mineral or oil and gas value. But I think 
that we could sit down and talk about where there would be 
exchanges of equivalent value, and I suggest again that we do 
that in the monument.
    Mr. Cannon. I would like to pursue this a little bit in the 
next round of questioning. I see my time is gone, but I 
recognize that not all of the school trust lands have mining or 
oil and gas or other kinds of those commercial-type revenues. 
But there is a mandate to produce revenue off those lands, and 
there are many ways to do that. And development doesn't mean 
building condos. Obviously, the water situation doesn't support 
that.
    So the question is, and I would appreciate it if you would 
consider for a moment, are there blocks of land or can SUWA 
within its organization come up with blocks of land that it 
could propose as consolidated trades for the scattered trust 
lands? My time has expired, but I will come back to that.
    Mr. Hansen. The gentleman from Colorado, Mr. Schaffer.
    Mr. Schaffer. Thank you, Mr. Chairman. I am not a member of 
the subcommittee. I came just first to say that we in Colorado 
share an awful lot in common with Utah having a great amount of 
Federal involvement in ownership of public lands, as well as 
management of the public lands. And certainly the outcome of 
issues like this are of great concern to us, and we are very 
interested in them.
    A couple questions that I had deal with--I would like to 
ask all three of you--with respect to this Grand Staircase-
Escalante National Monument and setting the 1.7 million acres 
in that project. Did your organization support or oppose the 
President in that particular designation?
    Mr. Meadows. We very much supported the President in that 
designation, and we are very interested in working with BLM as 
it addresses the management options for that monument. So we 
are much committed to that.
    Ms. Sease. We also support the designation of the monument.
    Ms. McIntosh. We also supported the designation of the 
monument, and we too look forward to working toward developing 
a good management plan for the monument.
    Mr. Schaffer. The reason I asked that question is because I 
was impressed, frankly, with your comments about your desire to 
work with the Utah Delegation on the school lands issue. And 
the reason I asked about the monument was to really inquire 
into the depths of that sincerity.
    This monument designation was not done with the support or 
even the consultation of the State of Utah, the Utah officials. 
It was announced in another State and I believe one of the most 
unfortunate examples of cowardice in the Administration in the 
way it went about that particular designation in an election 
year from another State and, again, with the total absence of 
any consideration for the values of the State of Utah.
    Knowing now that you support that, I want to inquire--or 
you supported that activity. I want to go a little further into 
your concern and your willingness to work on the school lands 
issue. Most western States have very similar arrangements with 
how they fund local schools.
    The 2.1 million acres that Mr. Cannon proposes includes 
140,000 acres of school trust lands, and this is the defining 
issue of the bill, I believe. You all said that you supported 
H.R. 1500, which has 5.7 million acres of wilderness and 
630,000 acres of Utah school trust lands.
    And, again, you expressed your desire to work with the Utah 
Delegation on the school lands issue. I am curious as to how 
you worked or to what extent you consulted the Utah Delegation 
before arriving at your decision to support H.R. 1500 and its 
treatment of the school lands issue? Any one of you jump right 
in.
    Mr. Meadows. Let me make a couple of comments related to 
that. First of all, I think we really are sincere in working on 
the opportunities for exchange. As many of you know, Conoco Oil 
Company is now inside the monument on State lands preparing to 
drill exploratory wells.
    They have asked for permission to do the same on Federal 
lands. The Bureau of Land Management issued an environmental 
assessment. We suspect that Conoco will move ahead, that BLM 
will grant that, and Conoco will move ahead and do that 
drilling sometime this summer.
    We have been in discussion--all three of our organizations 
have been in discussion with Conoco and with BLM trying to work 
through a way in which we might be able to do a land exchange. 
The question becomes value for value. It is a very difficult 
issue, and it is not one that anyone is necessarily experienced 
enough or has enough information or data about the place in 
order to make those kinds of judgments, and that is what makes 
it difficult.
    I would offer that we are dealing with different acreages 
and different values for each of those sections, in fact. It 
isn't as if we have to find similar acreage. What we are trying 
to find is similar value. So if we can find similar value 
within the State of Utah and publicly owned lands for the trade 
of the 600,000 school trust land acreage, then we would work to 
do that. It doesn't necessarily mean it has to be 600,000 
acres.
    I would also go on to say that our organizations have 
really focused our understanding of the land on what is inside 
the monument and what is inside the wilderness areas that we 
have researched. We are not as familiar, I suspect, with those 
areas outside the monument or outside the wilderness areas. So 
we don't have the expertise of all the lands in Utah but would 
be eager to pursue that.
    Mr. Schaffer. On the school land issue, which officials in 
Utah have you dealt with to arrive at the decision that you 
made to work with the officials in Utah? On the school lands 
issue which ones or which individuals in the State--
representing the State did you work with before you came to the 
conclusion to support H.R. 1500?
    Mr. Meadows. Well, I have to admit that I came to The 
Wilderness Society on December the 1st of 1996 so this decision 
had already been made. I applauded it from a distance, but I 
have not talked with any official within the State of Utah 
about that particular issue.
    Ms. Sease. Congressman Schaffer, the Sierra Club I think 
has a long history of working in a number of States with both 
the equivalent of the State school trust and with the 
delegation to craft workable solutions to exchanges and 
wilderness proposals.
    I can certainly recall--in fact, I just sent off to our 
archives two file drawers full of materials on a project in 
Utah that was referred to as Project Bold. The fact that that 
did not come to a successful resolution doesn't mean that we 
didn't try to work cooperatively.
    Most of the bills that have had a successful resolution on 
the State school trust were not introduced with that exact 
language initially. It was derived as one headed into the 
closing years of negotiation over the bills.
    Mr. Schaffer. Any elected officials that you can name that 
you worked with or cooperated with in a similar sort of way on 
this bill?
    Ms. Sease. On this particular bill----
    Mr. Schaffer. H.R. 1500 I mean.
    Ms. Sease. On H.R. 1500, if you will look at it, it does 
not have a detail section on State school trust lands.
    Mr. Schaffer. It ignores it is my point.
    Ms. Sease. And I think that if that language were to be 
developed, certainly it would be appropriate for the sponsor of 
the bill and for supporters of the bill to work very closely 
with folks in Utah on that issue.
    Mr. Hansen. The time of the gentleman--possibly, you asked 
a kind of a tantalizing question about the monument in Utah. 
You can well imagine yesterday there was a lawsuit filed by the 
counties and the school trust, and we have done a lot of work 
on that. We have had a hearing--a very exhaustive hearing on 
it. We were also asked--we were going to subpoena the 
information that was between the White House and the Interior 
Department.
    I think little by little most of the environmental 
communities are coming to the same conclusion that they did, 
the 1906 Antiquity Law doesn't offer anywhere near the 
protection of the 1964 Wilderness Act, NEPA, and the 1976 FLPMA 
Act. In fact, in the statement between Kathleen McGinty and 
Secretary Babbitt, he states that.
    They didn't bring that out, of course, and, therefore, to a 
certain extent in both these bills that are being offered 
today, they both have rather large chunks in the area that is 
now the monument. You can ask the question did the effort of 
the President extinguish the WSAs? Possibly; possibly not. But 
we will find that out I am sure maybe a judicial question. I 
would argue that it would.
    Anyway, I think somebody really fouled up on it as far as 
protecting an area as they surely didn't do it. They had better 
protection under FLPMA than they ever got under this monument. 
And that seems to be from every legal opinion we can get. That 
seems to be the premise. I am not faulting anybody for doing 
it. The President has that right.
    I do think though that the Act has well outlived its 
usefulness. It was there and at the time there was no way to 
protect the Grand Canyon and Zions and all those beautiful 
areas. Anyway, I think that someone shot themselves in the foot 
on that one if I may say so. And now we are finding--we are 
getting letters daily on that. Maybe you have gone through that 
too in Colorado, but I say that as Chairman of the Committee.
    I just want to thank you folks. We had excellent testimony 
from all three of you; appreciate it very much. Now, let me add 
that you are welcome in my office anytime. We are more than 
happy to talk to you. Contrary to popular belief, there isn't 
any ``them and us'' around here.
    And we gain a lot from you folks, and so long as we keep it 
civil, we are more than happy to talk to any folks. And, Mr. 
Meadows, congratulations on your position now. I didn't realize 
it had been so short. I hope that works out well for you.
    Mr. Meadows. Thank you.
    Mr. Hansen. And with that, we thank you all, all who have 
been here, and we will conclude this hearing with me banging 
the gavel because there is another one that is going to start 
in a little while in here.
    [Whereupon, at 1 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of Louise Liston, County Commissioner, Garfield County, Utah

    Mr. Chairman:
    On behalf of the people of Garfield County, I wish to 
express my gratitude to Chairman Hansen for his longstanding 
leadership on the wilderness issue in Utah and for holding yet 
another hearing on this issue in his subcommittee today. I 
would also feel remiss if I did not thank Congressman Cannon 
for fulfilling the promises he made to the people of Utah that 
his first order of business as a Congressman would be to act to 
redress our grievances due to the September 18, 1996 
Presidential executive order creating the Grand Staircase 
Escalante National Monument. Congressman Cannon has proved to 
be a tireless worker on the Monument issue and with the 
introduction of S. 1952, he now puts before the Congress of the 
United States legislation which the people of rural Utah can--
on the whole--live with. It is refreshing to have someone 
represent us who does not simply complain, but keeps their 
promises by acting--Thank you for getting off to a good start 
as our 3rd District Congressman.
    Mr. Chairman, let me say this about BLM wilderness. We the 
people of southern Utah are tired of it. We want the issue 
resolved. But, we are not now, nor will we ever be willing to 
agree to legislation that destroys our livelihood, simply 
because we are tired of the conflict. All of the issues: BLM 
wilderness, the new National Monument, RS 2477 roads, state 
school trust lands, actual development of coal, oil, gas and 
other mineral reserves on public lands; all of these issues 
must be taken into account and resolved equitably before we 
will consider the controversy settled. We have always been 
willing to participate in the public process and have played by 
the rules. We regret that the President of the United States 
and his Secretary of the Interior have not. To now consider 
adding millions of new acres of BLM wilderness in our counties 
without taking all of these issues into account would be 
unconscionable for us.
    Without beating around the bush, we hear that some would 
like to use this 2.1 million acre wilderness bill as a starting 
point and split the difference with advocates of H.R. 1500 at 
around 3.2 million acres. We hear that because some are tired 
of dealing with the issue, a 3.2 million acre bill sounds 
appealing because it would placate environmental groups, who 
view the legal 3.2 million WSA limit as their bottom line. The 
fact is, Mr. Chairman, Secretary Babbitt is illegally managing 
BLM lands in Utah now as de facto 5.7 million acres, not the 
legal limit of 3.2 million acres. It may be politically 
expedient to cut a deal at 3.2 million acres, but on the land, 
where we live, that amount of wilderness, on top of the 
restrictions imposed by the creation of a 1.7 million acre 
national Monument, on top of the restrictions imposed on us by 
four adversarial lawsuits over RS 2477 rights-of-way, will 
effectively place us into a permanent position of servitude.
    Rural Utahns are aware that only about 1 million acres of 
land in the state qualify for wilderness under the definition 
of the 1964 Act. We have agreed to double that amount for 
political reasons. If Congress chooses to raise the acreage 
total to 3.2 million acres or higher and ignores the 1964 
Wilderness Act criteria entirely, then it is time to amend the 
Wilderness Act to conform to reality. If not, then Congress 
should adhere to the laws it passes and be intellectually 
honest with the American people. Please don't ask us to call 
something wilderness that does not fit the criteria. If members 
of this committee are going to change the rules, then I 
recommend the Congress consider first changing the 1964 law.
    Look at reality one more time. Sixty seven percent of Utah 
is federally owned. The lands being managed as wilderness study 
areas now constitute over 20 percent of the Federal lands in 
the State. Existing Forest Service & BLM wilderness constitutes 
another 5 percent of Federal lands. The National Park Service 
Controls another 7 percent of the Federal lands, the Grand 
Staircase-Escalante National Monument (absent the 350,000 BLM 
WSA acres) constitutes another 8 percent of the Federal land. 
All told 40 percent of the Federal lands in Utah, not including 
Indian Reservations and military restricted areas are 
effectively off limits to multiple uses. Said another way, less 
than half of the lands in Federal ownership are classified as 
multiple use lands and available for economic development. An 
additional 13 percent of the lands in Utah are state school 
trust lands. I will talk more about them in a minute, but 
please understand these school trust lands are restricted to 
whatever use is deemed appropriate by the surrounding Federal 
land manager. Unless these lands are blocked-up so they can be 
developed, they are worthless to the state school trust and can 
not generate revenue of any kind.
    So let me conclude by saying Garfield county supports 
Congressman Cannon's bill as the one which comes closest to 
portraying things the way they actually are on the land. It 
contains more wilderness than the 1964 Act definition allows, 
but we believe we can survive under its terms.
    Just as important, the Cannon bill takes a significant step 
toward resolving the age-old impasse over Federal-state land 
exchanges by allowing the trustees for the school system in 
Utah to select unappropriated Federal lands within 2 years of 
enactment and requires that the school trust provisions of the 
bill must occur before any wilderness designations can take 
place. H.R. 1500, Mr. Hinchey's bill, as in years past, fails 
to address these critical issues.
    While I am hopeful enactment of Congressman Cannon's bill 
means educational interests in Utah may finally receive the 
attention they deserve and actual exchanges take place, let me 
point out something many Members of Congress and many 
environmental groups absolutely do not want to hear. That is, 
in order for any Federal-state land exchange to mean anything, 
school trust lands have to be exploited, developed. Some 
courageous company or companies must invest capital in a coal-
mining project, and oil drilling operation and actually develop 
the resource in order for any money to go to the school 
children of Utah. Let me say that another way. It is the 
royalties paid as result of natural resource extraction, which 
will fill the coffers of the state school trust.
    As of today, June 24, 1997, less than 1 percent of the 
state school budget in Utah is derived from such development. 
Utah spends a higher percentage of its state budget (80 
percent) on education than any other state. At the same time, 
Utah is dead last, fiftieth in per capita spending on 
education--in large part, because it can not tax its people any 
more without driving individuals and industry out of the state. 
If state school trust lands could begin to contribute in a 
meaningful way, perhaps Utah could spend more on students, pay 
its teachers better salaries, or even lower its already high 
taxes. For that to happen, development must occur on state 
lands.
    For those environmentalists who are now going ballistic, 
please know that all the applicable environmental laws 
governing development on public lands: NEPA, FLPMA, SMCRA, ESA, 
CWA, CAA--all of them still apply. If the objective of each of 
these Acts is to simply stop all development however, then this 
legislation can call for unlimited land exchanges and in lieu 
selections and the outcome would still be meaningless. The 
parties must act in good faith and allow natural resource 
development to occur somewhere in Utah.
    If I have been blunt in my testimony then, Mr. Chairman, I 
plead guilty. This is the way things really are. You know it 
and I know it. What we seem to be dealing with in the Utah 
wilderness debate is an endless parade of dancing around the 
truth, and I for one, am tired of it. I stand ready to help you 
pass this legislation in any way that I can. Thank you.

[GRAPHIC] [TIFF OMITTED] T3774.001

[GRAPHIC] [TIFF OMITTED] T3774.002

[GRAPHIC] [TIFF OMITTED] T3774.003

[GRAPHIC] [TIFF OMITTED] T3774.004

[GRAPHIC] [TIFF OMITTED] T3774.005

[GRAPHIC] [TIFF OMITTED] T3774.006

[GRAPHIC] [TIFF OMITTED] T3774.007

[GRAPHIC] [TIFF OMITTED] T3774.008

[GRAPHIC] [TIFF OMITTED] T3774.009

[GRAPHIC] [TIFF OMITTED] T3774.010

[GRAPHIC] [TIFF OMITTED] T3774.011

[GRAPHIC] [TIFF OMITTED] T3774.012

[GRAPHIC] [TIFF OMITTED] T3774.013

[GRAPHIC] [TIFF OMITTED] T3774.014

[GRAPHIC] [TIFF OMITTED] T3774.015

[GRAPHIC] [TIFF OMITTED] T3774.016

[GRAPHIC] [TIFF OMITTED] T3774.017

[GRAPHIC] [TIFF OMITTED] T3774.018

[GRAPHIC] [TIFF OMITTED] T3774.019

[GRAPHIC] [TIFF OMITTED] T3774.020

[GRAPHIC] [TIFF OMITTED] T3774.021

[GRAPHIC] [TIFF OMITTED] T3774.022

[GRAPHIC] [TIFF OMITTED] T3774.023

[GRAPHIC] [TIFF OMITTED] T3774.024

[GRAPHIC] [TIFF OMITTED] T3774.025

[GRAPHIC] [TIFF OMITTED] T3774.026

[GRAPHIC] [TIFF OMITTED] T3774.027

[GRAPHIC] [TIFF OMITTED] T3774.028

[GRAPHIC] [TIFF OMITTED] T3774.029

[GRAPHIC] [TIFF OMITTED] T3774.030

[GRAPHIC] [TIFF OMITTED] T3774.031

[GRAPHIC] [TIFF OMITTED] T3774.032

[GRAPHIC] [TIFF OMITTED] T3774.033

[GRAPHIC] [TIFF OMITTED] T3774.034

[GRAPHIC] [TIFF OMITTED] T3774.035

[GRAPHIC] [TIFF OMITTED] T3774.036

[GRAPHIC] [TIFF OMITTED] T3774.037

[GRAPHIC] [TIFF OMITTED] T3774.038

[GRAPHIC] [TIFF OMITTED] T3774.039

[GRAPHIC] [TIFF OMITTED] T3774.040

[GRAPHIC] [TIFF OMITTED] T3774.041

[GRAPHIC] [TIFF OMITTED] T3774.042

[GRAPHIC] [TIFF OMITTED] T3774.043

[GRAPHIC] [TIFF OMITTED] T3774.044

[GRAPHIC] [TIFF OMITTED] T3774.045

[GRAPHIC] [TIFF OMITTED] T3774.046

[GRAPHIC] [TIFF OMITTED] T3774.047

[GRAPHIC] [TIFF OMITTED] T3774.048

[GRAPHIC] [TIFF OMITTED] T3774.049

[GRAPHIC] [TIFF OMITTED] T3774.050

[GRAPHIC] [TIFF OMITTED] T3774.051

[GRAPHIC] [TIFF OMITTED] T3774.052

[GRAPHIC] [TIFF OMITTED] T3774.053

[GRAPHIC] [TIFF OMITTED] T3774.054

[GRAPHIC] [TIFF OMITTED] T3774.055

[GRAPHIC] [TIFF OMITTED] T3774.056

[GRAPHIC] [TIFF OMITTED] T3774.057

[GRAPHIC] [TIFF OMITTED] T3774.058

[GRAPHIC] [TIFF OMITTED] T3774.059

[GRAPHIC] [TIFF OMITTED] T3774.060

[GRAPHIC] [TIFF OMITTED] T3774.061

[GRAPHIC] [TIFF OMITTED] T3774.062

[GRAPHIC] [TIFF OMITTED] T3774.063

[GRAPHIC] [TIFF OMITTED] T3774.064

[GRAPHIC] [TIFF OMITTED] T3774.065

[GRAPHIC] [TIFF OMITTED] T3774.066

[GRAPHIC] [TIFF OMITTED] T3774.067

[GRAPHIC] [TIFF OMITTED] T3774.068

[GRAPHIC] [TIFF OMITTED] T3774.069

[GRAPHIC] [TIFF OMITTED] T3774.070

[GRAPHIC] [TIFF OMITTED] T3774.071

[GRAPHIC] [TIFF OMITTED] T3774.072


</pre></body></html>
